<html>
<title> - TEXAS WILDFIRE REVIEW: DID BUREAUCRACY PREVENT A TIMELY RESPONSE?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
   TEXAS WILDFIRE REVIEW: DID BUREAUCRACY PREVENT A TIMELY RESPONSE?

=======================================================================

                             FIELD HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT,
                     INVESTIGATIONS, AND MANAGEMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 17, 2011

                               __________

                           Serial No. 112-52

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/





                  U.S. GOVERNMENT PRINTING OFFICE
73-739                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="781f0817381b0d0b0c101d1408561b171556">[email&#160;protected]</a>  
                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, INVESTIGATIONS, AND MANAGEMENT

                   Michael T. McCaul, Texas, Chairman
Gus M. Bilirakis, Florida            William R. Keating, Massachusetts
Billy Long, Missouri, Vice Chair     Yvette D. Clarke, New York
Jeff Duncan, South Carolina          Danny K. Davis, Illinois
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                  Dr. R. Nick Palarino, Staff Director
                   Diana Bergwin, Subcommittee Clerk
              Tamla Scott, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Oversight, Investigations, and Management:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas.............................................     8

                               WITNESSES
                                Panel I

Mr. W. Nim Kidd, Assistant Director, Emergency Management, Texas 
  Department of Public Safety....................................    11
Major General John F. Nichols, Adjutant General, Texas Military 
  Forces Texas:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. Kevin Starbuck, CEM Emergency Management Coordinator, 
  Amarillo/Potter/Randall Office of Emergency Management:
  Oral Statement.................................................    15
  Prepared Statement.............................................    18

                                Panel II

Mr. Tony Russell, Region VI Regional Administrator, Federal 
  Emergency Management Agency, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23
Mr. Tom Harbour, Director, Fire and Aviation Management, USDA 
  Forest Service:
  Oral Statement.................................................    27
  Prepared Statement.............................................    28


   TEXAS WILDFIRE REVIEW: DID BUREAUCRACY PREVENT A TIMELY RESPONSE?

                              ----------                              


                        Monday, October 17, 2011

             U.S. House of Representatives,
    Subcommittee on Oversight, Investigations, and 
                                        Management,
                            Committee on Homeland Security,
                                                        Austin, TX.
    The subcommittee met, pursuant to call, at 10:04 a.m., at 
the Texas State Capitol, 100 Congress Avenue, Room E1.010, 
Austin, Texas, Hon. Michael T. McCaul [Chairman of the 
subcommittee] presiding.
    Present: Representative McCaul.
    Also present: Representative Cuellar.
    Mr. McCaul. Well, good morning. The Committee on Homeland 
Security will come to order. I first would like to thank my 
good friend, Congressman Henry Cuellar, for agreeing to be the 
Ranking Member of this committee's hearing. Let me just say at 
the outset that this is an official Congressional hearing, and 
so we will abide by the House rules that we abide by in the 
Congress just the same as if we were having this hearing in 
Washington, DC.
    With that, I want to thank the witnesses for traveling to 
Austin to participate. The purpose of this hearing is to 
examine whether bureaucracy prevented a timely response to the 
recent devastating wildfires experienced in our State. I 
appreciate the effort taken on behalf of all those involved to 
have this important field hearing.
    The Chairman now recognizes himself for his opening 
statement. That's how we talk in Washington. You have to 
recognize yourself to talk, so I recognize myself. I want to 
just say good morning again. Welcome to my home State of Texas, 
for those of you who traveled outside the State. Unfortunately, 
Texas has been the epicenter of a great natural disaster this 
year. Anyone who lives here knows it's hot, and we experienced 
our share of wildfires, but the summer of 2011 was off the 
charts.
    For many cities, it was the hottest summer on record. Here 
in Austin, we had 90 days with temperatures over 100 degrees. 
The worsening drought turned the State's vegetation into dry 
tinder. The State was, indeed, a tinderbox and continues to be 
so. This confluence of events set America's backyard ablaze, 
and since January 1, according to the Texas Forest Services, 
the State had over 3,000 wildfires, which have scorched almost 
4 million acres, an area as large as the States of Connecticut 
and Rhode Island combined.
    Over Labor Day weekend, Tropical Storm Lee exacerbated the 
spread of fire, delivering high winds instead of much-needed 
rain. Just a few miles from where we sit today erupted, 
arguably, the worst wildfire in Texas history, the Bastrop 
fire.
    As we look behind me, you see scenes from that fire. It 
looked nothing short of a nuclear explosion going off. The 
Bastrop fire was a daunting 16 miles long, 4 miles wide, and 
scorched almost everything in its path. Nearly 35,000 acres of 
pine trees, more than 1,500 homes destroyed, and thousands more 
evacuated, and two people lost their lives.
    Let me first say I commend the 800 local Texas 
firefighters, many of them volunteers, who quickly answered the 
call that, ``Texas is burning, and we need you.'' Burning it, 
indeed, was. I remember traveling on that Monday at the very 
beginning of the fire directly into these scenes, and I can 
tell you I've never seen anything quite like it. I've been to 
Afghanistan, to Pakistan, to Baghdad, and I've never seen 
anything like this.
    I wish I could also recognize and commend the Federal 
Government, but these fires are a tragic example of what 
appears to be a lack of planning and slow response because of 
bureaucratic red tape. Let me first unravel the red tape. The 
process to file a claim starts with the county filing a request 
for assistance to the State. The State then files with the 
Federal Emergency Management regional administrator, or FEMA. 
The regional administrator then files a request with FEMA 
headquarters in Washington, DC. FEMA assesses the request and 
makes a recommendation to the White House. Finally, the 
President has the last word and either approves or disapproves 
the request.
    In my judgment, help should be just a phone call away and 
not a series of requests winding their way through a 
bureaucratic maze at a time of enormous emergency. Texas 
followed the process asking for relief in 252 of our 254 
counties over an extended period of time. This is what the 
people of Texas said they needed to fight these fires.
    Upon FEMA's recommendation, the President only awarded 45 
counties relief, and no immediate fire fighting aircraft 
support. This inadequate funding wasn't even an immediate 
directive. It took the President 13 days to sign the 
declaration. During that period, the President made time to 
assist Alabama's tornado disasters and even visit Alabama to 
see the devastation. Meanwhile, Texas burned. This is 
unacceptable. Help should be a phone call away.
    So I would like to know here today from our witnesses: Why 
was there a delay in deploying critical resources? Why did it 
take weeks? What is the formula FEMA uses to decide how much 
assistance to provide and what resources to send? How much 
subjectivity is involved? Why does FEMA continue to use a 
county-by-county assessment of relief rather than a regional 
basis?
    To ensure this situation does not happen again, FEMA must 
streamline its application process for disaster declarations to 
immediately start providing aid, cleanup, and rebuilding 
process. Many Texas fire departments had to choose between 
filling out paperwork to meet FEMA's deadlines and 
firefighting--fighting fires that continued to burn. In other 
words, they had to choose between fighting the fire, the 
immediate emergency, or filling out paperwork.
    I would submit that fighting the fire is the utmost 
priority in a situation like that. In fact, this is the amount 
of paperwork that is required to fill out to get reimbursement 
for firefighter management assistance grants and for FEMA 
reimbursement. So the firefighter has to choose between this 
and putting out the fire. That's a choice we shouldn't put them 
in.
    Going forward, we must strategically pre-position Federal 
fire fighting aviation assets in high-risk areas. Despite all 
the warnings that Texas faced with it being the driest summer 
in more than 100 years, there was no pre-positioned aircraft to 
help. The lack of immediate response from these aircraft assets 
caused significant delays in fighting the fires in Bastrop 
County where more than 1,500 homes were destroyed and lives 
lost.
    FEMA must also change its defined jurisdictions for 
declarations. FEMA must move to a regional-based program rather 
than the current county-based program. This will lend 
assistance to counties whose resources were depleted helping 
neighboring communities.
    What happened in Texas this year is inexcusable and 
unacceptable. The homes of good Americans were scorched, and 
lives were lost. The Federal Government stood by, taking almost 
a week to assist the local efforts at firefighting--at fighting 
the fires. Nearby assets that could have stopped the fire 
sooner were tied up with red tape. My hope is that today we can 
find some answers and start moving forward towards solutions.
    So, with that, I expect we're going to have a very lively 
discussion, a lively debate, one that's solution-oriented, one 
that's looking forward. I just want to say when the DC-10 
tanker finally did make its way in, that's what happened. My 
constituents in Waller County on the Houston end of my district 
said it was like the cavalry coming in. Unfortunately, we 
didn't have the cavalry for Bastrop.
    [The statement of Chairman McCaul follows:]

                Statement of Chairman Michael T. McCaul

    Good morning and welcome to my home State of Texas, which has 
unfortunately been the epicenter of a great natural disaster this year.
    Anyone who lives here knows it's hot, and we experience our share 
of wildfires. But the summer of 2011 was off the charts.
    For many cities it was the hottest summer on record. Here in Austin 
we experienced 90 days with temperatures above 100 degrees. A worsening 
drought turned the State's vegetation into dry tinder. Texas was indeed 
a tinderbox.
    This confluence of events set America's backyard ablaze. Since 
January 1, according to the Texas Forest Service, the State has 
experienced 3,129 fires, which have scorched 3.8 million acres--an area 
as large as the States of Connecticut and Rhode Island combined.
    Over Labor Day weekend, Tropical Storm Lee exacerbated the spread 
of fire delivering high winds instead of much-needed rain. Just a few 
miles from where we sit today erupted arguably the worst wildfire in 
Texas history.
    The Bastrop fire was a daunting 16 miles long, 4 miles wide, and 
scorched almost everything in its path.
    Nearly 35,000 acres of pines, more than 1,500 homes destroyed and 
thousands more evacuated. Four people lost their lives.
    I commend the 800 local Texas fire fighters, many of them 
volunteers, who quickly answered the call--``Texas is burning and we 
need you.''
    I wish I could also recognize and commend the Federal Government. 
Unfortunately these fires are tragic examples of what appears to be a 
lack of planning and slow response because of bureaucratic red tape.
    Let me first unravel the red tape. The process to file a claim 
starts with the county filing a request for assistance to the State. 
The State then files with the Federal Emergency Management (FEMA) 
Regional Administrator. The Regional Administrator then files a request 
with FEMA headquarters in Washington, DC. FEMA assesses the request, 
and makes a recommendation to the White House. Finally, the President 
has the last word, and either approves or disapproves request.
    Help should be a phone call away, not a series of requests winding 
their way through a bureaucratic maze.
    Texas followed the process, asking for relief for 252 of our 254 
counties over an extended period of time. This is what the people of 
Texas said they needed to fight these fires. Upon FEMA's 
recommendation, the President only awarded 45 counties relief, and no 
immediate firefighting aircraft support.
    This inadequate funding wasn't even an immediate directive. It took 
the President 13 days to sign the declaration. During that period the 
President made time to assist Alabama's tornado disasters and even 
visited Alabama to see its devastation.
    Meanwhile, Texas burned. This is unacceptable.
    Help should be a phone call away.
    So today I would like to know:
    1. Why was there a delay in deploying critical resources? Why did 
        it take weeks?
    2. What is the formula FEMA uses to decide how much assistance to 
        provide and what resources to send? And how much subjectivity 
        is involved?
    3. Why does FEMA continue to use a county-by-county assessment of 
        relief rather than a regional basis?
    To ensure this situation does not happen again, FEMA must 
streamline its application process for disaster declarations to 
immediately start providing aid, cleanup, and the rebuilding process. 
Many Texas fire departments had to choose between filling out paperwork 
to meet FEMA deadlines and fighting fires that continued to burn.
    Going forward we must strategically pre-position Federal 
firefighting aviation assets in high-risk areas. Despite all the 
meteorological warnings that Texas faced with it being the driest 
summer in more than 100 years, there were no pre-positioned aircraft to 
help. The lack of an immediate response from these aircraft assets 
caused significant delays in fighting the fires in Bastrop County, 
where more than 1,500 homes were destroyed, and lives lost.
    FEMA must also change its defined jurisdictions for declarations. 
FEMA must move to a regional-based program, rather than the current 
county-based program. This will lend assistance to counties whose 
resources were depleted helping neighboring communities.
    What happened in Texas is inexcusable and unacceptable.
    The homes of good Americans were scorched, and lives were lost. The 
Federal Government stood by, taking almost a week to assist the local 
efforts at fighting the blaze. Nearby assets that could have stopped 
the fire sooner were tied up in red tape.
    My hope is that today we can find some answers, and start moving 
toward solutions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. McCaul. So, with that, I recognize my very good friend, 
Mr. Cuellar, who serves as Ranking Member of the Homeland 
Security's Subcommittee on Border and Maritime.
    Mr. Cuellar. Chairman, I want to thank you very much and 
thank you for inviting me to be here with you. It's good to be 
back in my hunting grounds. Back--I think I spent about 15 
years in the State legislature. I had meetings here in this 
particular hearing room, so it's always good to be back.
    I want to thank the Chairman for convening this hearing in 
our home State. Chairman McCaul and I have worked together in a 
bipartisan basis on numerous issues facing Texas. We've gone 
off to Iraq, Afghanistan, Pakistan. We've gone off to Mexico 
together. We've gone down the border, also working together to 
make sure that we secure the borders. So I certainly want to 
thank him for all the work that he's done, and certainly I'm 
happy to please--pleased to join forces with him to address 
another issue that's vital to the concern of Texans, and that 
is Texas wildfires that even now are still burning in our State 
of Texas.
    The purpose of this hearing is to examine the impact of 
these tragic wildfires and determine what steps can be taken to 
improve the process for receiving disaster assistance. Again, 
I'm very, very interested--I would ask the witnesses, when 
you're addressing us, to look at lessons learned, because I'm 
one of those that certainly wants to look at lessons learned 
and see what we can do to improve the process.
    I would like to thank all the witnesses for participating 
in this morning's hearing, and as we convene here today, my 
thoughts and prayers are with those who have lost their lives, 
their property during this tragic wildfire season. I know Mike 
and I have--the Chairman and I have talked about this, and I 
know it hit his district very, very hard, and that's why I'm 
here--with him here today, to show my support to our Chairman.
    Again, you know, people have lost their residences, their 
livelihoods, and who have, in many ways, been affected by these 
wildfires. I would like to thank, also, and express my 
appreciation to those brave men and women who have worked 
around the clock since the fires began to protect the lives and 
property of our fellow--so I want to thank all of y'all for all 
the work that y'all have done.
    Since late August, a record 3.8 million acres, an area 
roughly the size of Connecticut, has burned and continues to 
burn even as we meet here right now. In fact, almost half of 
all the acreage burned in the United States in 2011 was burned 
here in Texas. Just yesterday, the Texas Forest Services 
responded to four fires occurring over 7 acres, and 230 of the 
254 Texas counties reported burn bans.
    In the past 7 days alone, the Texas Forest Service has 
responded to 40 fires over 1,456 acres, and fire departments 
reported 37 fires over 77 acres, with over 1,300 homes 
destroyed, 5,000 people displaced, possibly up to $5 billion in 
damages to our State agricultural industries. Wildfires have 
once again shown that they're a deadly threat to people living 
here in the State of Texas.
    That's the bad news. The good news is that in addition to 
the State and local aid, Federal assistance is now working in a 
coordinated way. In less than 5 years since the last 
Presidential disaster declaration for the State wildfires, 
Federal assistance has topped $16.4 million, and we need to do 
more. I'll be the first one to say we need to do a lot more.
    The only thing is, you know, there are some debates up 
there in Washington--we have the deficit debate, as you know, 
and there have been some cuts, and it's going to affect 
everybody. A couple of years ago, we heard people say loud 
across the State of Texas, including here in Austin, ``We've 
got to cut the Federal Government. The Federal Government is 
getting in our way.'' Now when a disaster hits, who are the 
first people they look at? It's the Federal Government on that.
    So again, I'm one of those that feels we ought to work 
together to do this. Currently, there was another debate issue 
in Washington, DC, and FEMA was in the center of the budget 
process and threatened Federal Government shutdown when the 
majority took the position that Federal funding for disaster 
relief, including the current wildlife fires we're having, 
should be offset by equal cuts from other programs. Do we put 
money towards the fires so we can cut education? I think the 
Joint Committee on Higher Ed is meeting right now.
    We've never done that before. We have never done that 
before. We take care of the disasters. Then we worry about how 
we pay them later. An emergency should be taken care of instead 
of having a Washington debate as to how we pay for this.
    But, nevertheless, you know, we've got to make sure, when 
something like this happens, there's coordination at all 
levels, at the--at all levels of government; State, local, and 
Federal. I'm pleased to see representatives of the Federal, 
State, and local level will testify before us so we can talk 
about lessons learned here.
    To the extent that there's red tape--and I'll be the first 
one to join my friend Michael McCaul. If that's a barrier to 
responsive recovery, then we must address it. You know, what do 
we need to do to break down those bureaucratic responses if 
there's one.
    But I'd like to note one thing. I used to be the Ranking 
Member of the Subcommittee on Border and Maritime, and I served 
as the Chairman of the Subcommittee on Emergency Communications 
preparing this response. So I'm very, very familiar with these 
issues, FEMA. That used to be my subcommittee that I used to 
chair before I moved over to the Border Committee.
    It's important to note that the Stafford Act--and I've been 
one of those that have been asking that we make changes to it. 
I think it's outdated. The Stafford Act, which governs disaster 
response, recognizes that the States and local communities and 
not the Federal Government--I emphasize, not the Federal 
Government--have the primary responsibility to address 
disasters and emergencies. The Federal Government, when called 
upon, acts to supplement these efforts and provide resources to 
State and local government when the resources are exhausted.
    So, again, I'm one of those that have always said, ``We 
ought to change the Stafford Act,'' but it's so hard to do 
that, but I need--I think we need to continue to look at that. 
So I appreciate the multiple moving parts that must work 
together on the Federal, the State, the local level to 
formulate a response that's effective, that's timely, that 
serves the needs of those affected by disasters.
    Again, I look forward to see how we can work on this 
together. I certainly--the wildfires have really, you know, 
cost us lives and damages to property and livelihood, and I'm 
interested in what we need to do to improve the process, and I 
think this will be a unique teaching moment to learn on how we 
better prepare to respond to disasters.
    So I thank my Chairman for allowing me to be here with him, 
and I look forward to working with him to find solutions to the 
problems that we have. I yield back the balance of my time.
    Mr. McCaul. I think the gentleman--and I agree. I think 
this is a forward-looking, solution-oriented type of hearing, 
but you don't know how to fix something if you can't, at first, 
look at what went wrong. So--I assume this is on.
    We have a distinguished panel of witnesses I'd like to go 
ahead and introduce now. The first is Mr. Nim Kidd. He's the 
Assistant Director of Emergency Management for the State of 
Texas, Department of Public Safety. Mr. Kidd previously served 
as San Antonio's Homeland Security Director and Emergency 
Manager. He has served as a San Antonio firefighter, as well as 
Lieutenant Captain and District Fire Chief. He has also served 
as a member of the Texas Task Force 1: Urban Search and Rescue 
Team since 1997, responding to State and National disasters, 
including the World Trade Center attack on September 11. I want 
the thank you for your service and thank you for being here 
today, Mr. Kidd.
    Next we have Major General John Nichols. General Nichols is 
the 51st Adjutant General of the State of Texas. He is 
responsible to the Governor for providing ready-trained forces 
of the Texas Army Guard, the Texas Air Guard, and the Adjutant 
General's Department, better known as the Texas Military 
Forces, in support of State operations. He is also responsible 
to the President for providing Texas Army Guard and Air Guard 
Forces in support of Federal missions. Thank you for your 
service as well.
    Next we have Mr. Kevin Starbuck. He is the Emergency 
Management Coordinator for Amarillo, Potter, Randall Office of 
Emergency Management. He's a certified Emergency Manager 
through the International Association of Emergency Managers. He 
serves as the Potter and Randall County Local Emergency 
Planning Committee Chairperson and is a member of the Panhandle 
Regional Emergency Management Advisory committee.
    Then we have our two Federal witnesses that I would like to 
introduce. Mr. Tony Russell, who was appointed as the Regional 
Administrator for Region 4 at FEMA in December 2009. Mr. 
Russell is responsible for all FEMA operational decisions and 
policy implementation in Texas, Oklahoma, New Mexico, Arkansas, 
and Louisiana. He previously served as the Federal Coordinating 
Officer with Region 8 from 2003 to 2009, and he also assumed 
the role of acting director of the FEMA Louisiana Recovery 
Office for Hurricanes Katrina, Rita, Gustav, and Ike. You have 
a great deal of experience, sir, and I do appreciate the 
personal phone calls that you gave to me during this fire 
disaster in Bastrop.
    Finally, we have a long-standing, many generations Texan, 
Mr. Tom Harbour, who can link his ancestors all the way back to 
the Stephen F. Austin colony, which is in my district. It's 
great to have you here with that type of lineage. He is the 
Director for Fire and Aviation Management at the U.S. Forest 
Service. Mr. Harbour has been involved in wildland fire 
management for decades, beginning with service in California. 
He has served as the area and incident commander for a wide 
range of disasters, including fires, hurricanes, earthquakes, 
and floods.
    With that, the Chair now recognizes Mr. Kidd for his 
testimony.

    STATEMENT OF W. NIM KIDD, ASSISTANT DIRECTOR, EMERGENCY 
         MANAGEMENT, TEXAS DEPARTMENT OF PUBLIC SAFETY

    Mr. Kidd. Thank you, sir, and good morning. I would also 
like to start by thanking the thousands of Texas and National 
firefighters that came to assist; the paid, the volunteers, the 
first responders. The work that they have done this fire season 
is nothing short of a miracle and is nothing short of stellar, 
and we would be very much remiss if we didn't take every 
opportunity to thank them for the service.
    I'd also like to thank you for your service. We spent time 
together in Bastrop, many phone calls back and forth trying to 
make sure that what we were doing was the right thing to do, so 
thank you for your leadership.
    Congressman, I also thank you for the years that we spent 
in San Antonio working together. I know tomorrow will be a 
rough day in your district as the elevated fire weather will be 
there, so thank you for your leadership in being here as well.
    Mr. Cuellar. Thank you.
    Mr. Kidd. Before I move on, I think we would also be remiss 
if we didn't recognize the Director of the Texas Forest 
Services, who is here with us, Tom Boggus, who may help us with 
some of the questions and answers that we have as well.
    Texas started its wildfire season on November 15, 2010. On 
December 21, 2010, Governor Perry issued the first of what 
would be continuing disaster declarations, noting that we were 
in a state of drought and in a state of responding to 
magnificent wildfires.
    In the last 10 months, the State of Texas has responded to 
24,258 wildfires. I think that's important to know that that 
does not count the hundreds of thousands of local 9-1-1 calls 
that urban fire departments respond to on a daily basis. This 
isn't trash fires. This isn't house fires. These are wildland 
fires. It's my understanding that this 21,000 is roughly a 
third of what the U.S. Forest Service responds to on a National 
average in 1 year.
    It's also important to know that 3.8 million acres have 
burnt so far, as we've talked about already, that 2,862 homes 
have been lost. What we sometimes fail to mention is that 
36,204 homes have been saved by the work of the firefighters 
out there on the front lines.
    We will talk more in depth, I'm sure, about the Fire 
Management Assistance Grant process, FMAGs, in which Texas has 
received 55 FMAGs since December--actually, since February 27, 
2011, and 51 of those have been funded based on some criteria 
that need to be met.
    As we break down the number of fires and FMAGs in acreage, 
we should remember that 1.2 million acres have been covered by 
a Fire Management Assistance Grant. That leaves 2.6 million 
acres with zero Federal funding coming in to assist. We're 
working through the process with FEMA to get public assistance 
under the Stafford Act to help with that. That also equates to 
13,967 homes saved on the Fire Management Assistance Grants 
fires, but 22,237 homes saved on non-FMAG fires.
    The cost to Texans so far is $304 million, and the FMAGs 
allow for $52 million, but at a 75/25 percent split, we will 
really only see $39 million of the $304 million returning to 
Texas to cover the cost of the fires. I think we will have to 
dance carefully around the difference between personnel and 
resources that responded to assist Texans and the Federal money 
that comes in after that to assist Texans.
    So on the response and recovery side, I will submit that 
the U.S. Forest Service and FEMA have been here from very early 
days with their personnel and with their equipment to help us. 
At this point, the prime danger to Texas is the $304 million 
that we have spent that we are working through the recovery 
process to see what is eligible and what's a non-eligible 
expense.
    The Stafford Act and Title 44 of the Code of Federal 
Regulations are cumbersome. I totally agree with you. To figure 
out a safer, smarter way to do that should be in all of our 
best interests, and I hope that will be the focus that we work 
through.
    We also know that through the FMAGs, there is much room for 
improvement, because the standardized definition of a Fire 
Management Assistance Grant award is very subjective. You will 
not find a National definition of what constitutes an FMAG fire 
other than ``any fire in and of itself with the capability of 
becoming a major disaster.'' There is no minimum acreage. There 
is no minimum homes lost. There is no evacuations in process. 
Those are thumb rules or policies that I would suggest are 
different by FEMA region.
    We talk a lot about FEMA not being here to help or the Feds 
not being here to help, and I would say that that, in most 
cases, is not necessarily true. I do believe that they've been 
here working with us from Day 1. The big difference is they are 
not loaning us their resources. They're selling us their 
resources.
    Remember, this is a process for recovery as we work through 
the public assistance and the individual assistance grants, and 
as we work through those together, all of those processes are 
very time-consuming. I understand that it does take a large 
amount of paperwork to defend and justify the expenses that we 
have. We would all like to see that reduced, and we are very 
much looking forward to ways that we can do that together. 
Thank you.
    Mr. McCaul. Thank you, Mr. Kidd.
    The Chairman now recognizes General Nichols for his 
testimony.

 STATEMENT OF MAJOR GENERAL JOHN F. NICHOLS, ADJUTANT GENERAL, 
                  TEXAS MILITARY FORCES, TEXAS

    General Nichols. Mr. Chairman, Congressman Cuellar, thanks 
for inviting me today. I'd like to talk about what the Texas 
National Guard has been doing to help Texas in the last quite a 
few months--way too many months.
    As you stated before, we have--we're dual role. We support 
the President and the Constitution against enemies, usually 
foreign, and we protect the Governor and the State of Texas, 
against any natural disaster, and we would be his primary 
military force if called upon if we needed that.
    The mission of the National Guard--Texas National Guard is 
to provide manpower and resources and equipment to help the 
Texas Department of Emergency Management in responding to State 
and local emergencies, and we've done that for decades now. Our 
role is as a supporting agency to TDEM, and we're the single 
point of contact with TDEM for execution. It allows us to 
respond quickly in response to whatever happens in Texas.
    Additionally, we continue to coordinate with the planners 
and the first responders to improve what we've done in the 
past; as mentioned before, lessons learned. Every fire season, 
every hurricane season, every flood season, every time we have 
snows up north, we come back and refine what our response was 
from the past to the present, all the time trying to improve 
our response to the needs of the citizens of Texas.
    We've been supporting TDEM and Texans in the fights against 
the fires since--the Texas National Guard started February 14. 
Since then, we've flown 82 missions. It doesn't sound like 
much, but a mission is one day's flying, so--and that could be 
all of our helicopters flying on one day. So that's all counted 
as a mission.
    We've dropped 5,745 buckets of water for a total of almost 
5 million gallons of water dropped this year just since 
February. Then our fire break team has cut 162 miles of fire. 
When you consider a D7 dozer is a pretty big bulldozer that 
doesn't go very fast, we've been busy. Our folks have been--the 
fire break teams have been working since the April and May time 
frame.
    Regarding the Bastrop fires, we had eight Blackhawks 
flying. They put in 67 hours of flying time, and they dropped 
456,000 gallons of water on the fire. We also had three Chinook 
helicopters flying. They flew 80 hours, and they dropped 
913,000 gallons of water. A Blackhawk can drop 600 gallons of 
water. A Chinook can drop 2,000 gallons of water. If you--I'm 
sure you saw them going back and forth during the Bastrop fire. 
They were just going over to the Colorado River, picking up 
water, and going. One time they took water out of a family's 
pool to put out their house, so I think that was a fair trade 
that day.
    One of the Chinook Bambi buckets was provided by Fort Hood. 
Fort Hood was fighting their own fire at the time, and they had 
one Bambi bucket that--and they only have one. Ours went out 
for maintenance, so we asked for that, and they provided it to 
us just about immediately. Just for that effort right there, 
just in Bastrop County, we had 181 personnel supporting the 
effort.
    We had one dozer team, which is comprised of four 
bulldozers, and the team teamed up with the Texas Forestry 
Service and the U.S. Forest Service. They're the fire boss. 
They led us through there, and we cut--I think it was--it ended 
up being 5 miles of fire break. That sounds not much, but when 
you think about Highway 71 in Bastrop and how the fire jumped 
across the shoulder, the lanes--the median strip, the lanes, 
the shoulder, it takes a while to cut something wide enough to 
have any effect. They're not fighting in that kind of 
environment. They're fighting more around where the retardant 
is dropped. It's not uncommon for them to come back covered in 
orange when they're finished fighting the fire, because they're 
right there right with that team.
    We also had 60 Texas State Guard soldiers helping Bastrop 
set up shelters for the displaced families that had time and 
need. We brought communications packages. We put liaison 
officers out there. We also supported 600 firefighters at Camp 
Swift, which is very close to Bastrop, north and west of 
Bastrop. There weren't 600 firefighters there at any time. They 
were doing a thing called hot bunking. Three hundred were 
sleeping while 300 were fighting, and then they'd have a shift 
change, 300 would sleep while 300 fought. So the firefighters 
were working 24/7 during that whole period of time. We supplied 
bunking and life support essentials for them in concert with 
the Texas Forestry Service.
    I thank you for the opportunity to talk today, to let you 
know that also we've been partnered up with TDEM since we were 
first tasked to come to the fire, and throughout that--the 
whole fire season, we've been on alert and ready to go whenever 
asked and whenever called. Thank you for your time.
    Mr. McCaul. Thank you, General.
    [The statement of General Nichols follows:]

                   Prepared Statement of John Nichols
                            October 17, 2011

    Mr. Chairmen, Members, thank you for having me here today.
    As you know the National Guard is unique in that we serve dual 
missions: First, to provide the President and the country with ready 
and trained combat forces in support of the defense of the Nation; 
second, we provide the Governor and the citizens of Texas with a 
mission-ready force in support of civil authorities.
    The mission of the Texas National Guard is to provide the manpower 
and equipment to support the Texas Department of Emergency Management 
in responding to State and local emergencies. Our role as a supporting 
agency to TDEM, which is the single point of contact for planning and 
execution, allows Texas to act quickly in response to any need.
    Additionally, we continue to coordinate with the planners and first 
responders to improve our capability through training and enhanced 
infrastructure to respond to the emergency needs of the citizens of 
Texas.
    Regarding the Central Texas fires in Bastrop the Texas National 
Guard provided:
    Eight Blackhawk helicopters which flew a total of 67.2 hours and 
dropped 456,060 gallons of water.
    Three Chinook helicopters flew a total of 80.4 hours and dropped 
913,000 gallons of water.
    One Chinook Bambi Bucket was provided by Fort Hood to replace a 
TXNG Bambi Bucket damaged during the fire.
    A total of 181 personnel supported this effort.
    One Ground Wildfire Suppression Force Package composed of four D7 
Bulldozers with supporting vehicles and equipment was employed on the 
fire and cut 5 miles of fire break. All 16 personnel were on State 
Active Duty during the event. In addition, one Liaison Officer 
supported the Incident Command Post.
    Texas State Guard provided 60 Soldiers to establish shelters and 
support civilians displaced by the Bastrop County Complex Fire. All 
personnel were in a State Active Duty status.
    Two Texas Interoperable Communication Package trailers supported 
the Incident Command Post. Personnel were in a State Active Duty 
status.
    Four Texas State Guard Soldiers of the Resource Team were assigned 
to the Logistics Section of the State Operations Center.
    One Aviation Liaison Officer served in Merkel, TX, to assist the 
Texas Forest Service in coordinating TXMF Aviation assets supporting 
the Texas Forest Service throughout the State.
    Thank you for the opportunity to appear before you today to discuss 
how the Texas National Guard will continue to support the Texas 
Department of Emergency Management in working to keep Texans safe by 
ensuring our readiness at the time of need.

    Mr. McCaul. Let me say thank you for your efforts on behalf 
of the State of Texas. I think the response at the highest 
levels of the State and the volunteer fire departments was 
really phenomenal, and so thank you for that.
    Next, the Chairman recognizes Mr. Starbuck.

     STATEMENT OF KEVIN STARBUCK, CEM EMERGENCY MANAGEMENT 
   COORDINATOR, AMARILLO/POTTER/RANDALL OFFICE OF EMERGENCY 
                           MANAGEMENT

    Mr. Starbuck. Thank you, Chairman, Congressman. I 
appreciate being invited to represent one of many local 
jurisdictions in the State of Texas who have had to actively 
deal with this wildfire season on the front lines.
    I would be remiss without bringing up that jurisdictions 
such as Possum Kingdom, the Wichita Falls area, the Bastrop 
area, the Davis Mountains area all had significant wildfire 
threats throughout the year, including other locations 
throughout the State of the Texas, and each one of them has 
their own story to tell that could help bring this picture to 
light and maybe make it a more whole picture for each of you to 
consider.
    As a Local Emergency Manager, our primary task is to be 
proactive as we possibly can, coordinating our local resources 
to ensure that we can address all hazards that impact our 
jurisdictions in as rapidly and efficiently a manner as we 
possibly can. We take this very seriously in the city of 
Amarillo, and over the year--over the course of this year have 
been very active in standing up fire weather operations in 
advance of wildfire outbreaks.
    Some of the major wildfires that we had in Potter and 
Randall Counties starting on February 27, the first of the 
major wildfires in Texas, involved standing up our emergency 
operation center as early as 9:00 in the morning, calling in 
additional resources, additional firefighters, public works 
personnel with their motor graders, and coordinating 
extensively with our Disaster District Committee personnel that 
represent the State of Texas and with the National Weather 
Service to get a good picture of what the threat truly was on 
that particular day and in subsequent days throughout the year.
    As wildfires outbroke in our community and throughout the 
western--West Texas and throughout the State of Texas, our job 
is to coordinate the resources that we have at our disposal 
from a local side and, as we identify needs, communicate those 
to the State of Texas. There truly isn't a mechanism, nor 
should there be a mechanism, where I contact or speak directly 
with FEMA or Federal responders. I leave that to the State of 
Texas to work through those issues and to make those 
determinations about whether they have the resource to meet our 
needs or need to call upon others to assist.
    Bureaucracy did not prevent a timely response from local 
jurisdictions or the State of Texas. We had people in place. We 
aggressively attacked the issues when they presented themselves 
and worked to minimize the impact on our communities to the 
extent possible.
    Our frustration was more founded in the recovery process 
where we were looked upon to provide information, often on very 
short notice, and requiring extensive efforts on our parts to 
put together cost estimates of what it cost to respond to these 
wildfires in order to be considered for eligibility for Federal 
disaster reimbursement funds.
    Both of the FMAG fires, of which four have been declared in 
Potter and Randall Counties, the jurisdictions I represent, and 
the major disaster declaration that has been considered for the 
State of Texas have required us to put in extensive time and 
effort in order to make determinations on whether we would be 
eligible for reimbursement funding or not.
    As a city department, I would honestly say that we are 
geared to handle it in our budgetary processes. We work through 
those issues.
    My concern is for the many volunteer fire departments who 
have put forward extensive effort, extensive wear and tear on 
equipment. It's been characterized to me that the wildfire 
season that we have experienced this year and the pace of 
operations that they have had to work through equates to 3 to 5 
years of wear and tear on the equipment that they normally 
would see.
    When a volunteer fire department that is basically working 
off of bake sales to buy fire trucks sees 3 to 5 years of wear 
and tear on their front-line equipment, there's going to be a 
long-term impact on their ability to continue to be a 
serviceable response entity.
    That's where FEMA reimbursement funds come into play, to 
assist us in making those departments whole and to help them 
continue the fight for the long term related to wildfire 
threats.
    There are a number of different things that I think need to 
be looked at in relation to both the FMAG process, the 
paperwork that was submitted as part of the FMAG process, and 
then also the major disaster declaration determination process.
    It seems that in years past, a disaster summary outline 
providing basic estimates of costs that local jurisdiction 
incurred in response to a major disaster was enough to make 
those determinations. This year, we were required to submit 
extensive paperwork well beyond that in order to help make 
those determinations, which, as of today, continue to remain 
unfunded or unsubstantiated for at least our local jurisdiction 
and many jurisdictions throughout the State of Texas.
    There's an understanding that FEMA must have mechanisms in 
place to make those determinations, and we'll be the first to 
admit that the--at least in Potter and Randall Counties--that 
the wildfire threat and the costs that were associated were 
marginal in terms of what would be considered a Federal 
disaster declaration. But when considered in the scope and 
magnitude of the overall wildfire threat throughout the State 
of Texas, throughout West Texas, throughout my particular 
jurisdiction this year, I think that that needs to be 
reconsidered on how those determinations are made.
    Further, our concern remains that while this year's 
wildfires continue, the long-term forecast that we see and that 
we have to deal with are not showing any relief in sight for 
the State of Texas well into next year. So the extent of 
impacts that we've had this year, the extent of equipment being 
used up in response to these fires is not just a short-term 
issue, but will remain a long-term issue as we continue to see 
extensive wildfires.
    As Chief Kidd has already alluded, we're already seeing red 
flag warnings for the Austin area this week, and I'm sure that 
over the course of this winter, spring, and summer of next 
year, we'll continue to see additional issues.
    I appreciate your time, and I appreciate you looking into 
this issue, looking at the overall scope, and I appreciate the 
opportunity to come speak before the committee today.
    [The prepared statement of Mr. Starbuck follows:]

                  Prepared Statement of Kevin Starbuck
                            October 17, 2011

    The Texas Panhandle is experiencing an unprecedented wildfire and 
drought impact in 2011. Per National Weather Service records (dating 
back to 1892), 2011 is the driest year on record for the Amarillo area. 
These dry conditions combined with record heat and extreme winds 
created a fire weather threat on a scale never before experienced in 
the Texas Panhandle and throughout much of the State of Texas.
    Starting in December 2010, the emergency management program began 
coordinating pro-active fire weather operations with area fire 
departments, law enforcement, and public works due to the extreme 
conditions. With each Red Flag Warning issued by the National Weather 
Service, the Amarillo/Potter/Randall Emergency Operations Center (EOC) 
activated to a heightened readiness level with additional emergency 
response agency staffing to ensure maximum readiness to respond to any 
wildfire that started in the two county jurisdiction and support the 
needs of neighboring jurisdictions throughout the Texas Panhandle.
    These efforts were coordinated with the State of Texas Disaster 
District Committee personnel located in the Amarillo area. State of 
Texas response assets located in the region are available to all local 
jurisdictions in an effort to maximize response resources as wildfires 
threaten communities with a strong working relationship existing 
between local jurisdictions and State partners. The primary wildfire 
response asset that was deployed to the Amarillo area was Texas Forest 
Service-contracted single engine air tanker firefighting aircraft. 
Unfortunately, very few Texas Forest Service ground assets were 
deployed to the Texas Panhandle region when significant wildfire 
activity in the Texas Panhandle began in late February 2011.
    On February 27, 2011, the National Weather Service Amarillo 
forecast indicated extreme Red Flag fire weather conditions with 
critically dry fuel moisture, single-digit relative humidity values, 
and high wind warnings based on forecasted sustained winds of 40+ mph 
with gusts exceeding 60 mph. The extreme weather conditions centered on 
the Amarillo area mirrored a fire weather phenomenon found by local 
National Weather Service and Texas Forest Service researchers conducive 
for large wildfire outbreaks.
    While multiple fires broke out throughout West Texas, the most 
devastating wildfires in terms of property damage occurred in Amarillo 
area. The Willowcreek South Complex wildfire located just north of 
Amarillo in Potter County forced the evacuation of approximately 1,250 
residents, consumed 24,310 acres, and destroyed 37 residences and 70 
outbuildings with an estimated property value loss of $7,035,547. At 
nearly the same time, the Tanglewood Complex wildfire located just 
south of Amarillo in Randall County forced the evacuation of 
approximately 1,539 residents, consumed 1,224 acres, and destroyed 33 
residences and 40 outbuildings with an estimated property value loss of 
$5,965,880.
    With multiple incidents occurring in the Amarillo/Potter/Randall 
interjurisdictional emergency management program area, local officials 
issued a local disaster declaration for the City of Amarillo, Potter 
County, and Randall County. The disaster declaration requested 
emergency response assistance from the State of Texas and consideration 
from the Federal Emergency Management Agency (FEMA) for the issuance of 
a Fire Management Assistance Grant (FMAG) and other Federal disaster 
recovery assistance to offset the extensive response and recovery costs 
that were being incurred. A request for a FEMA FMAG is required to be 
completed while major response operations are on-going per FEMA policy. 
The Amarillo/Potter/Randall EOC was notified on February 27, 2011 that 
FEMA had declared the Willowcreek South Complex wildfire in Potter 
County and the Tanglewood Complex wildfire in Randall County eligible 
for the FMAG program.
    On the day following the wildfire outbreak, emergency management 
officials completed a local initial damage assessment and a Disaster 
Summary Outline (4-page form) used to determine the scope and magnitude 
of a disaster and the jurisdictions eligibility for Federal assistance. 
This information was submitted to the Texas Division of Emergency 
Management (TDEM) by close of business on February 28, 2011. Based on 
the information provided, TDEM and U.S. Small Business Administration 
officials came to Amarillo to perform a preliminary damage assessment. 
The combined State and Federal preliminary damage assessment resulted 
in a U.S. Small Business Administration Disaster Declaration for Potter 
County and Randall County.
    Concurrently, TDEM officials conducted an initial briefing on the 
FMAG program, requesting Potter County and Randall County officials to 
compile response cost information for the two wildfires using FEMA 
disaster recovery paperwork. TDEM officials provided information to the 
local jurisdictions that while the Willowcreek South Complex and 
Tanglewood Complex wildfires were declared FMAG wildfires, the State of 
Texas had not exceeded the FEMA threshold for suppression costs, and 
thus the jurisdictions were not eligible for FMAG funding. TDEM 
officials briefed that the FEMA suppression cost threshold of 
approximately $4,000,000 in calendar year 2011 was a moving target as 
additional suppression cost information was being gathered from 
throughout the State of Texas for wildfires that had occurred prior to 
February 27, 2011. Should it be determined that the State-wide wildfire 
suppression costs prior to February 27, 2011 exceeded the eligibility 
threshold, then the FMAG declared wildfires in Potter County and 
Randall County would be eligible for Federal reimbursement funding.
    Based on this information, the City of Amarillo, Potter County, and 
Randall County compiled the response cost information using the FEMA 
disaster recovery paperwork. The result was extensive staff hours used 
to generate 5" thick of FEMA project worksheets outlining the 
suppression costs for the local jurisdictions. To date, the Willowcreek 
South Complex and Tanglewood Complex wildfires remain unfunded. TDEM 
has provided that the State of Texas suppression cost threshold of 
approximately $4,000,000 was exceeded sometime in the early March 2011 
time frame, leaving the wildfires of February 27, 2011 ineligible for 
FMAG funding by a mere few days per the FEMA policy.
    Fire weather conditions continued to deteriorate in the Texas 
Panhandle region throughout the spring months. On May 24, 2011, the 
region was once again facing critically extreme wildfire conditions 
leading local officials to once again increase readiness levels and 
pre-deploy response assets throughout the jurisdictions. Multiple major 
wildfires occurred south of the City of Amarillo in Deaf Smith County, 
Swisher County, and Randall County. The largest of these wildfires was 
the Cemetery Road wildfire that began in the late afternoon of May 24, 
2011 in central Randall County. The initial response to the wildfire 
resulted in the evacuation of approximately 60 residents in the Sunday 
Canyon area and the evacuation and closure of the Palo Duro Canyon 
State Park, which at the time of the evacuation order had approximately 
140 elementary students in the bottom of the canyon on a field day to 
the State Park.
    The Amarillo/Potter/Randall EOC contacted the TDEM Regional Liaison 
Officer providing information on the Cemetery Road wildfire and the 
response actions being taken in Sunday Canyon and Palo Duro State Park. 
A request was made for a FEMA FMAG declaration for the Cemetery Road 
wildfire, which was forwarded up the chain of command by the TDEM 
Regional Liaison Officer. Approximately 60 minutes into the initial 
response to the Cemetery Road wildfire, the Incident Commander received 
a direct call from a FEMA representative stating that the Cemetery Road 
wildfire was not significant enough to justify an FEMA FMAG 
declaration. The Incident Commander forwarded this information to 
Amarillo/Potter/Randall EOC, which contacted the TDEM Regional Liaison 
Officer for clarification and an explanation of the FEMA FMAG denial, 
especially given that the response to this major incident was just in 
the beginning stages. No explanation was provided to the local 
jurisdiction.
    The Cemetery Road wildfire continued to burn for 4 days, consuming 
16,373 acres, tying up extensive local emergency response resources and 
nearly every State and Federal firefighting response asset deployed to 
West Texas. The fire forced the continuous evacuation of the Sunday 
Canyon area (approximately 300 residents) and the Palo Duro Canyon 
State Park until the fire was declared under control.
    On May 29, 2011, the Amarillo area was once again the center point 
for critically extreme fire weather. In the afternoon hours, the Pitt 
Road wildfire started in Randall County followed shortly by the Stone 
Ridge wildfire in Potter County. The Pitt Road wildfire in Randall 
County forced the evacuation of approximately 200 residents, consumed 
180 acres, and destroyed 4 residences and 11 outbuildings with an 
estimated property value loss of $109,284. The Stone Ridge wildfire in 
Potter County forced the evacuation of approximately 3,000 residents, 
consumed 1,556 acres, and destroyed 8 residences and 21 outbuildings 
with an estimated property value loss of $2,561,035.
    Once again, the Amarillo/Potter/Randall EOC contacted the TDEM 
Regional Liaison Officer relating information on the scope and 
magnitude of the unfolding wildfires and requesting FEMA FMAG 
consideration. Both the Pitt Road and Stone Ridge wildfires were 
declared FEMA FMAG wildfires and are reportedly eligible for 
reimbursement funding for suppression costs. To date, the City of 
Amarillo, Potter County, and Randall County are continuing to compile 
the required FEMA disaster recovery paperwork to submit for FMAG 
reimbursement.
    Additional information outlining the wildfire threat in the 
Amarillo/Potter/Randall area is outlined in the attached ``2011 
Amarillo/Potter/Randall Wildfire Threat Summary'' last revised on 
September 11, 2011 (attachment 1).
    In July 2011, Potter County Judge Arthur Ware received a letter 
from TDEM Chief Nim Kidd, dated July 7, 2011 outlining that Potter 
County was not approved for Public Assistance in the Federally-declared 
DR-1999 wildfires that occurred between April 6, 2011 and May 3, 2011 
(attachment 2). The letter requested that Potter County submit a 
Disaster Summary Outline to TDEM outlining the Public Assistance 
expenses for the county.
    TDEM was contacted requesting clarification of the requested 
information given that no major wildfires had occurred during the April 
6, 2011 to May 3, 2011 time frame in the Amarillo/Potter/Randall area. 
TDEM provided the explanation that the State of Texas had requested a 
major disaster declaration for 252 counties in Texas for the time frame 
of December 21, 2010 thru August 31, 2011. The DR-1999 Federal major 
disaster declaration was issued by FEMA to include only 45 counties and 
limited to the April 6, 2011 through May 3, 2011 time frame. Specific 
information requirements for reconsideration of undeclared counties was 
still being determined, but TDEM indicated that a TDEM/FEMA meeting 
would be scheduled in the coming weeks to gather information on all 
wildfire response costs from December 21, 2010 through the current 
date.
    On July 28, 2011, the Amarillo/Potter/Randall Office of Emergency 
Management (OEM) met with TDEM and FEMA representatives. At this 
meeting, FEMA requested that OEM submit all non-FMAG-declared wildfire 
response costs using FEMA disaster recovery paperwork broken down for 
Potter County and Randall County into three time frames: December 21, 
2010 through April 5, 2011; April 6, 2011 through May 3, 2011; and May 
4, 2011 through the current date. The indication was that this 
information would be used to determine the jurisdictions eligibility 
within the currently declared period of the DR-1999 disaster 
declaration and would provide a basis along with information from other 
jurisdictions for FEMA to reconsider the State of Texas request to 
expand the disaster declaration period.
    Three elements were discussed: First, that the request for 
completed FEMA disaster recovery paperwork was overly burdensome given 
the short turnaround time requested by FEMA. Second, that given that 
the February 27, 2011 Willowcreek South Complex wildfire in Potter 
County and the Tanglewood Complex wildfire in Randall County were 
declared, but unfunded FMAG wildfires, that their exclusion from 
consideration was not fair to the jurisdictions. And third, a more 
detailed explanation of what portions of response could be considered 
(i.e. equipment rates, overtime vs. straight time, volunteer 
consideration). The FEMA representative allowed that the full extent of 
FEMA disaster recovery paperwork would not be needed, but that the 
local jurisdiction needed to provide background information on how it 
arrived at the response cost estimate. In addition, the FEMA 
representative allowed that the February 27, 2011 Willowcreek South 
Complex and Tanglewood Complex wildfires could be included in the cost 
estimated due to the lack of FMAG funding.
    OEM spent extensive staff hours compiling the requested FEMA 
information, especially given the level of detail requested beyond the 
customary disaster summary information typically used to determine 
eligibility for Federal assistance.
    The submittal to FEMA provided the required breakdown outlining the 
FEMA allowable response costs for the period of December 21, 2010 
through July 23, 2011 (attachment 3 & 4). In Potter County, an 
estimated 211 wildfires were responded to with an estimated FEMA 
allowable response cost of $412,077. In Randall County, an estimated 
128 wildfires were responded to with an estimated FEMA allowable 
response cost of $429,871. Based on the FEMA per capita thresholds, it 
was indicated that the jurisdictions would need to exceed approximately 
$375,000 in FEMA allowable response costs in each county to be 
reconsidered for eligibility, assuming FEMA expanded the disaster 
period. No additional feedback was provided by TDEM or FEMA following 
submittal of the information.
    In late September 2011, a copy of a letter from FEMA to Governor 
Perry and a second letter from FEMA to TDEM dated September 21, 2011 
were forwarded to OEM outlining the denial of TDEMs request to expand 
the DR-1999 disaster declaration (attachment 5 & 6). It was noted in 
the letter that, ``it was not demonstrated that the prior or subsequent 
fire activity is part of the same extraordinary incident as the major 
disaster declaration''. Given the extreme extended nature of the 
wildfire threat in 2011 coupled with the extensive impact on 
communities throughout Texas during the entirety of 2011, the 
explanation does not appear to be based in the experiences of local 
jurisdictions throughout the State of Texas.
    In conclusion, did bureaucracy prevent a timely response . . . No, 
the interjurisdictional emergency management program in the City of 
Amarillo, Potter County, and Randall County leverage all available 
local, regional, and State resources to maximize response to incidents 
and minimize the impact of the wildfire threat on our community with 
limited external assistance. However, frustrations experienced in 
navigating the recovery process and assistance programs were 
tremendous. It is understood that FEMA must put in place mechanisms to 
ensure that Federal assistance is limited to truly catastrophic 
incidents. And based on this, it is recognized that the response to the 
wildfire threat in Potter County and Randall County is a marginal 
incident in relation to Federal disaster consideration. However, the 
process employed by FEMA to make those determinations is convoluted, 
time-consuming, and in need of improvement.

                            RECOMMENDATIONS

  <bullet> The declaration of an FMAG for wildfire incidents should not 
        require determination while in the midst of response to the 
        incident. Requesting emergency management and/or incident 
        command personnel to deviate attention from response efforts to 
        bureaucratic determinations creates the potential for public 
        safety to be threatened further. Declaration of an FMAG should 
        be made once incident stabilization has been established and 
        should be based on clearly published criteria versus subjective 
        determinations.
  <bullet> Once a State has exceeded the FMAG suppression cost 
        threshold, all FMAG declared fires for that calendar year 
        should be eligible for FMAG funding.
  <bullet> FEMA disaster recovery paperwork must be simplified and 
        should take into consideration jurisdictional accounting 
        systems that can already produce reports on equipment and labor 
        cost information. Requiring jurisdictions to transfer 
        information from established accounting systems to FEMA forms 
        is a duplication of effort.
  <bullet> Based on the requirements of the National Incident 
        Management System (NIMS), jurisdictions are required to 
        identify the FEMA ``kind & type'' for all response equipment. 
        However, equipment reimbursement is based on a FEMA equipment 
        rate schedule that does not correlate the NIMS equipment 
        ``types''. Equipment rates should be based on the NIMS 
        equipment ``typing'' verse an alternative equipment rate 
        schedule to improve determination of equipment cost rates.
  <bullet> Determinations of eligibility for a major disaster 
        declaration must be simplified with improved transparency and 
        less subjectivity. To date, OEM has not directly received any 
        feedback from TDEM or FEMA as to our status in the process. 
        Given that the local jurisdictions provided information 
        demonstrating response costs in excess of eligibility 
        thresholds, a more detailed explanation of the denial of the 
        expansion of the Federal major disaster declaration would 
        assist local jurisdictions in understanding the process.*
---------------------------------------------------------------------------
    * Attachments have been retained in committee files.

    Mr. McCaul. We want to thank you, Mr. Starbuck, and thank 
you for your great service. You're a County Judge. You're also 
the Emergency Manager. You're pretty much everything out there. 
I also--I agree with your warning that it's far from over. The 
State of Texas remains to be a tinderbox, and I think it's very 
foreseeable, as it has been this past year, that we'll have 
many more fires, unfortunately.
    With that, the Chairman recognizes Mr. Russell for his 
testimony.

 STATEMENT OF TONY RUSSELL, REGION VI REGIONAL ADMINISTRATOR, 
    FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Russell. Good morning, Chairman McCaul, and good 
morning, Congressman Cuellar. I want to thank you again for 
being able to come speak with you today.
    First of all, Chairman McCaul, I want to thank you for our 
phone calls before and during the fires. I think they were very 
good for us to talk to make sure that we were on the same page, 
and they were very helpful. Also I had phone calls with the 
Texas Congressional Delegations, a call at 1:00 p.m., before 
and during the fires, and just make sure that all the staff 
were on-line and make sure that we knew what we were doing. We 
were totally transparent, and to me that was my goal, to make 
sure that we were doing exactly that.
    I want to comment now on FEMA's role during the fires. 
First of all, I am very pleased with the way that we were able 
to pre-position assets. We were able to ensure that we pre-
deployed folks and to make sure that we were in support of the 
Governor and the Governor's team. That's my primary focus, to 
make sure that FEMA does exactly that.
    Since the declaration in Bastrop County for individual 
assistance, we have added 22 more counties to the declaration. 
That allows the survivors to be eligible for housing needs. We 
have 15 counties that have been declared for public assistance. 
That is to help the local governments and the communities 
rebuild their infrastructure. The State also expects an 
additional 15 counties for PA, and so that will give us a total 
of 30 counties that are going to be eligible for some form of 
Federal assistance, including IA and PA.
    I've had my Federal coordinating officer, Kevin Hanks--he's 
been in Texas for a long time. In fact, in July, he was down 
working on the DR 1999. When this fire happened, I sent him 
over as my FEMA liaison to interface with Chief Kidd, and at 
that time they began to take a look at the wildland fires in 
September.
    As they talked, they decided we had to have an IMAT Team, 
which is an Incident Management Assistance Team. That team was 
deployed on September 6. They got here to Austin. They began to 
plan for our response. Now, during this time, there was not a 
declaration yet, so we were in the process of the declaration.
    At this juncture, what happened is we sent out our PDA 
Team. That's the Preliminary Damage Assessment Teams, and those 
teams were geared to work with the State and to work with the 
locals to take a look at the amount of damage. The key, when we 
look at the damage, is we take a look at what is the uninsured 
losses. That's very, very key. Because, of course, if it's 
insured, then it's going to be paid for by a different source. 
So we looked at the uninsured losses.
    Those teams traveled almost right to the fireline, and my 
task to them was, ``I want this thing done quickly, but you 
guys have got to be safe.'' So safety came first. So they did 
that. So I'm pretty pleased with that and the way that we 
interfaced with Chief Kidd and his team.
    So some of the successes from all of this has been within 
the first 2 weeks of the declaration, we have--more than $6 
million of assistance has reached the survivors, and to date 
we're up to about $10 million. We have the Transitional Shelter 
Assistance Program that was approved for Bastrop County within 
6 hours after the declaration, and right now we have more than 
250 survivors who are involved in that program.
    We had a mobile registration intake center open on 
September 11, and that was to be able to get folks to quickly 
be able to register for their assistance. We had community 
relations teams that were in Austin before the event, and they 
were in the streets within 12 hours, making sure that we had 
face-to-face contact with those who were affected.
    We also reached out to folks with functional needs and 
disabilities to make sure that no one was left behind. We had 
sign language over at the DRCs, which are the Disaster Recovery 
Centers, and we also took a look at folks with limited English 
proficiency to make sure that we had translators there. We had 
folks there to make sure, again, that no one would be left 
behind as we moved forward.
    Now, to date, sir, we've had about 4,400 visitors to the 
disaster recovery centers that have been across the State. 
Also, to date, we've had--about 3,800 people have registered 
for Federal assistance. As we--as we move forward, I think 
those are just a few examples of exactly how we are going to be 
forward-thinking. We're going to make sure that the folks who 
are affected do, in fact, get the services that they need, and 
we at FEMA are committed to doing exactly that, to support the 
Governor and the Governor's team respond to this disaster.
    Sir, I thank you very much.
    [The prepared statement of Mr. Russell follows:]

                   Prepared Statement of Tony Russell
                            October 17, 2011

                            I. INTRODUCTION

    Chairman McCaul, Ranking Member Keating, and distinguished Members 
of the subcommittee, my name is Tony Russell and I am the Regional 
Administrator for the Federal Emergency Management Agency's (FEMA) 
Region VI Office. It is an honor to appear before you today on behalf 
of FEMA to discuss the Federal disaster process and the recent fires in 
Texas. In my testimony today, I will describe the Federal disaster 
declaration process, FEMA's response and recovery programs, and how 
these programs and assistance have been applied to the recent 
wildfires.

                 II. ASSISTANCE FOR THE TEXAS WILDFIRES

    This year, Texas has been battling its worst fire season in State 
history, and has experienced unprecedented heat and drought. The 
severity of the disaster intensified greatly over the Labor Day weekend 
when numerous wildfires began to spread.
    On July 1, 2011, the President issued a major disaster declaration 
for wildfires occurring between April 6, 2011, and May 3, 2011 (DR-
1999-TX). Currently, 52 Texas counties are designated for Public 
Assistance for emergency protective measures and debris removal, as 
well as repairs to roads and bridges, water control facilities, public 
buildings, publicly-owned utilities, and parks and recreation. FEMA is 
working with applicants to write up all eligible project worksheets so 
they can be reimbursed for eligible expenditures at a 75 percent 
Federal cost share.
    In response to the elevated fire conditions in September, the 
President also issued a major disaster declaration for Bastrop County 
(DR-4029-TX) on September 9--the same day the request was received from 
the Governor. That declaration, which covers fires occurring on August 
30, 2011 and continuing, has subsequently been amended to authorize 
Individual Assistance for 22 counties, Public Assistance for Bastrop, 
Colorado, Leon, and Walker Counties, and the Hazard Mitigation Grant 
Program State-wide.
    FEMA continues to engage with our local, State, and Federal 
partners as the wildfire response and recovery efforts in Texas have 
moved forward. With respect to DR-4029-TX, FEMA Region 6 staff were on 
the ground in the Austin area and Bastrop County days in advance of the 
major disaster declaration to ensure they were ready to support the 
State in the wildfire response and recovery efforts. We held daily 
calls with the Texas Congressional delegation to keep Representatives 
informed about the on-going wildfire response efforts. I personally 
traveled to the Bastrop County area a few weeks ago, where I met with 
local officials. I also participated in an aerial tour of the damage 
and visited the Disaster Recovery Center (DRC) in Bastrop County.
    Our goal has been to move as quickly as possible in response to the 
situation. Joint FEMA-State Individual Assistance Preliminary Damage 
Assessments were conducted in Bastrop County while the fires were still 
burning. Prior to a declaration, FEMA sent an Incident Management 
Assistance Team to Texas to develop a plan to expedite response, and 
immediate response and recovery capabilities were pre-positioned. 
Transitional Sheltering Assistance was approved for Bastrop County 6 
hours after the declaration and a Mobile Disaster Registration Intake 
Center opened on September 11. In the first 2 weeks following the 
declaration, $5.8 million in Individual Assistance has been provided to 
those impacted by this disaster.
    Community Relations teams were on the ground within 12 hours of the 
declaration, with State approval, to Assess, Inform, and Report (AIR). 
The teams were in the affected communities talking to survivors and 
providing information on how to contact FEMA and apply for Federal 
disaster assistance. As of October 12 (34 days after the President 
declared the event a major disaster), there have already been more than 
3,600 visits by disaster survivors to the Mobile Disaster Registration 
Intake Centers (MDRICs) and Disaster Recovery Centers (DRCs). As of 
October 6, 2011, there were 3,699 registrations for Individual 
Assistance, $7,001,522 approved for housing assistance, and $1,708,919 
provided as Other Needs Assistance. Numerous housing inspections were 
completed, and more than 2,240 individuals were eligible for 
transitional sheltering. In partnership with the State, FEMA identified 
the recovery efforts will also require 50-100 temporary housing units.

III. ADDITIONAL INFORMATION ABOUT THE DECLARATION PROCESS AND DISASTER 
                                PROGRAMS

The Disaster Declaration Process and Federal Disaster Assistance
    Although communities can make every effort to prepare for an 
emergency, disasters can strike at any time. Local and State 
governments are the first to respond, but when they become overwhelmed 
by the need, the Federal Government is ready to provide support where 
needed.
    The Robert T. Stafford Disaster Relief and Emergency Assistance Act 
(Stafford Act) establishes a process for requesting Presidential 
emergency and major disaster declarations, as well as declarations 
specifically designed to assist States affected by major wildfires, 
known as Fire Management Assistance Grants. It also defines the type 
and scope of assistance available from the Federal Government and sets 
specific conditions for obtaining that assistance. FEMA coordinates 
Federal response activities per the Stafford Act and the Homeland 
Security Act of 2002, and may provide direct or grant assistance as 
authorized by the Stafford Act and FEMA's implementing regulations.
    There are two main types of declarations provided for in the 
Stafford Act: Emergency declarations and major disaster declarations. 
Both declaration types authorize the President to provide supplemental 
Federal disaster assistance when State and local capabilities are 
overwhelmed.
    An emergency declaration may be issued for any occasion or instance 
for which the President determines Federal assistance is needed to 
supplement State and local efforts and capabilities to save lives and 
to protect property and public health and safety, or to lessen or avert 
the threat of a catastrophe in any part of the United States. A major 
disaster declaration may be issued in response to any natural 
catastrophe including any hurricane, tornado, storm, high water, wind-
driven water, tidal wave, tsunami, earthquake, volcanic eruption, 
landslide, mudslide, snowstorm, or drought or, regardless of cause, any 
fire, flood, or explosion in the United States which, as determined by 
the President, causes damage of sufficient severity and magnitude to 
warrant supplemental major disaster assistance.
    Although the types of events which are eligible for an emergency 
declaration are broader, the amount of assistance that may be provided 
under an emergency declaration is more limited in scope than that 
available under a major disaster declaration. Generally, Federal 
assistance and funding are provided under an emergency declaration to 
meet specific emergency needs or to help prevent a major disaster from 
occurring. Emergency declarations supplement State and local efforts in 
providing emergency services, such as debris removal; assisting with 
the distribution of medicine, food, and other consumable supplies, and 
emergency assistance; directing other Federal agencies to use their 
authorities and resources, and providing technical and advisory 
assistance to save lives, protect property and public health and 
safety, and lessen or avert the threat of a catastrophe. The total 
amount of assistance provided under a single emergency declaration is 
limited to $5 million, but that amount may be exceeded in certain 
circumstances established in section 503 of the Stafford Act.
    A major disaster declaration can result from a natural disaster or 
other threat, in which the President determines that supplemental 
Federal aid is warranted. In addition to the types of work eligible 
under an emergency declaration, permanent work to repair, restore, and 
replace damaged public and certain private non-profit facilities is 
eligible under a major disaster declaration.
    To receive either an emergency or major disaster declaration, the 
event must clearly exceed the capability of State or local governments 
to respond to and/or recover from the disaster. If declared, funding 
comes from FEMA's Disaster Relief Fund and disaster aid programs of 
other participating Federal agencies.
    To receive a disaster declaration, the Governor of the affected 
State must submit a letter of request to the President. The Governor's 
request must explain that the State took all appropriate actions under 
State law and executed the State's existing emergency plan. In reacting 
to the emergency, the State must explain that although it utilized 
every existing resource, the severity and magnitude of the event 
overwhelmed the State and affected local government's ability to 
respond, such that Federal assistance is necessary. A disaster 
assistance request explains that the severity of the disaster is such 
that the resources of the Federal Government can provide the level of 
aid needed.
    The Stafford Act requires that the Governor's request for 
assistance include detailed information about the damage and impacts to 
the State from the event. To collect that data, the State requests 
Joint Preliminary Damage Assessments (PDAs--damage assessment surveys 
conducted by FEMA and State officials to examine the level of damage 
after an event). The PDA teams consist of personnel from FEMA, State 
emergency management, county and local officials, and sometimes staff 
from the U.S. Small Business Administration. They jointly survey damage 
locations at the direction of the State. The teams review damage and 
estimate the costs of assistance to the affected areas, including the 
impacts to individuals, infrastructure, and critical facilities, such 
as public utilities. The teams note the levels of damage, the number of 
people displaced, and the remaining threat to health and safety caused 
by the event.
    If a major disaster is declared by the President, there are three 
possible programs that may be activated for any disaster. The 
determination of which programs are activated is based on the needs 
found during damage assessment and any subsequent information that may 
be discovered. The three main programs are: Individual Assistance, 
which provides assistance to individuals and households; Public 
Assistance, which provides assistance to State and local governments, 
Tribal governments, and certain private non-profit organizations for 
emergency work and facility restoration; and Hazard Mitigation 
Assistance, which provides Federal funding for measures designed to 
reduce future losses to public and private property.
The Disaster Response Process Including Support for Wildfires
    Emergency and major disaster declarations are designed to support 
communities overwhelmed by a variety of events. For major wildfires, 
the Stafford Act has established a specific type of declaration that 
may be issued by FEMA for a separate grant program only available for 
fires, known as Fire Management Assistance Grants, or FMAGs. These 
grants provide Federal financial assistance to States, local, and 
Tribal governments for the mitigation, management, and control of any 
fire on public or private forest land or grassland that threatens such 
destruction as to constitute a major disaster.
    A request for an FMAG declaration begins while a fire is still 
uncontrolled, and addresses specific criteria that are used to evaluate 
whether Federal assistance is warranted. These criteria include: The 
immediate threat to lives and property, including critical 
infrastructure or watershed areas; the availability of firefighting 
resources; high fire danger conditions per the National Fire Danger 
Ratings System; and the risk of potential major economic impact.
    The Governor submits the request to the FEMA Regional 
Administrator, who assesses the need with expert advisors, then 
approves or denies the declaration request. The decision to approve or 
deny the request takes into account the conditions that existed at the 
time of the State's request, such as the extreme drought in Texas, and 
whether the fire is likely to cause, or may have already caused, a 
level of destruction constituting a major disaster. FMAGs are intended 
to supplement State and local efforts and costs to mitigate, manage, 
and control active wildfires.
    The threshold for a FMAG disaster declaration is considerably lower 
than for a major disaster declaration. Because of this, reimbursement 
funds for an FMAG declaration are limited to the response phase of the 
disaster, and are not intended to finance long-term recovery projects. 
The FMAG is designed to provide most of what a State or municipality 
may need to replace the items used or damaged during the response phase 
of a severe wildfire.
    This year, the State of Texas has received 55 FMAG designations. 
The eligible costs for reimbursement under an FMAG include:
  <bullet> Costs for equipment and supplies (less insurance proceeds);
  <bullet> Costs for emergency work (evacuations and sheltering, police 
        barricading and traffic control, arson investigation);
  <bullet> Costs for a State emergency operations center (when used as 
        a Unified Command Center);
  <bullet> Costs for the pre-positioning of Federal, out-of-State, and 
        international resources for up to 21 days;
  <bullet> Cost of safety items for firefighter health and safety;
  <bullet> Costs for field camps and meals in lieu of per diem;
  <bullet> Costs for mobilization and demobilization costs;
  <bullet> Costs for the temporary repair of damage cause by 
        firefighting activities;
  <bullet> Costs for the mitigation, management, and control of 
        declared fires burning on co-mingled Federal land, when such 
        costs are not reimbursable by another Federal agency.
    FMAGs do not authorize the traditional programs which are available 
under a Presidential major disaster declaration. The Individual 
Assistance and Public Assistance Programs, and Hazard Mitigation Grants 
are not authorized as part of an FMAG declaration. FMAGs are designed 
specifically to support only the community's response needs during a 
severe wildfire.

The Disaster Recovery Process
    After the initial response to a Presidentially-declared event, the 
community, State, and Federal partners transfer into the recovery 
phase. Collaboration with our many partners is critical to FEMA's 
ability to assist communities and individuals in the recovery process. 
Texas is well-versed in the collaborative recovery process following 
the large-scale efforts required after Hurricanes Katrina, Rita, 
Gustav, and Ike in recent years. Successful recovery also depends on 
all stakeholders having a clear understanding of pre- and post-disaster 
roles and responsibilities. FEMA is just one part of the team, and the 
success and speed of recovery depends heavily on the whole community's 
involvement.
    For FEMA, the recovery phase of a Presidentially-declared event may 
involve the implementation of our Individual Assistance, Public 
Assistance, and Hazard Mitigation Grant programs. These programs 
provide support to individuals, families, and State, Tribal, and local 
governments to help them rebuild and reduce the recurrence of loss from 
future events.
    Individual Assistance provides assistance to individuals and 
families after a disaster, including emergency assistance, the 
Individuals and Households Program (IHP), Crisis Counseling Program, 
and the Disaster Case Management Program. FEMA's Individual Assistance 
programs are not intended to restore the disaster survivor to his or 
her pre-disaster standard of living. Instead, they are intended to 
supplement remaining eligible costs after the application of private 
insurance that is designed to make the survivor ``whole'' following a 
disaster. In particular, FEMA's housing programs provide a bridge 
between short-term shelter and long-term sustainable permanent housing. 
Disaster housing programs reflect the varying needs of disaster-
affected communities and individuals.
    Rental assistance is the most common form of housing assistance 
provided by FEMA and is used wherever possible in order to enable 
individuals and families to rent a housing unit while they locate and 
secure long-term permanent and sustainable housing. FEMA's Rental 
Resources Hotline and Housing Portal website provides a searchable 
database of available rental resources and provided tens of thousands 
of Houston-area options for Galveston families to seek shelter 
following Hurricane Ike. Another form of temporary housing provided 
under IHP is the Temporary Housing Unit (THU), which may be provided to 
survivors directly by FEMA when their residences have been rendered 
uninhabitable or destroyed by the declared event and there is 
insufficient rental housing available in the community.
    In addition to housing assistance, FEMA partners with the 
Department of Health and Human Services (HHS) to provide short-term 
counseling services and disaster case management following a disaster 
declaration. The Crisis Counseling Program is an interagency Federal 
partnership between FEMA and the Center for Mental Health within HHS's 
Substance Abuse and Mental Health Services Administration. These 
services are funded through grants given to the States by FEMA and 
provide counseling services for up to 9 months after the date of grant 
award. Outreach services under this program include public information, 
community networking, and education services.
    Another Individual Assistance program, the Direct Federal Disaster 
Case Management Program, is maintained through a Memorandum of 
Agreement signed in 2010 by FEMA and the HHS Administration for 
Children and Families. If a State requests and is approved for the 
Direct Federal Disaster Case Management Program, FEMA notifies the 
Administration for Children and Families to initiate the rapid 
deployment of disaster case management assistance to individuals and 
families in the affected disaster area. The second prong of the State 
Disaster Case Management Program is a State-administered program funded 
through a direct grant from FEMA. The State Disaster Case Management 
Program ensures that the State is an essential partner in the delivery 
of on-going disaster case management services and that the use of local 
service providers in the recovery for disaster survivors and their 
surrounding communities is maximized.
    FEMA's Public Assistance (PA) program provides Federal disaster 
grants to eligible State, Tribal, and local governments, as well as 
certain private nonprofit entities for certain eligible costs incurred 
to respond to the declared event as well as the repair, replacement, or 
restoration of publicly-owned facilities and infrastructure damage 
during a disaster. One form of assistance that the Public Assistance 
program provides is debris removal operations. In order to aid 
communities in faster recovery, recently the Public Assistance program 
piloted Operation Clean Sweep, also known as the Expedited Debris 
Removal Program, which uses geospatial imagery to make rapid 
assessments and identify the areas with the most catastrophic damage. 
This allowed FEMA to focus on the hardest-hit areas and combine direct 
Federal assistance and local government contracting to quickly remove 
debris. This pilot has been used with great success by local 
governments in Mississippi, Alabama, and Missouri in response to the 
spring storms to quickly remove debris. FEMA also funds temporary 
facilities like fire stations and schools as part of the PA program, 
which enables communities to quickly restore critical public 
infrastructure functions.

                             IV. CONCLUSION

    This administration is committed to doing all we can to assist 
Texans as they begin to recover from these devastating fires. This 
year, FEMA has approved a record 55 Fire Assistance Management Grants 
for Texas and the President has issued two major disaster declarations. 
Assistance is flowing to disaster survivors. FEMA is here to support 
the State of Texas and the Texas Division of Emergency Management 
(TDEM) in the wildfire response and recovery efforts. We will continue 
to stand with the people of Texas for as long as it takes to recover 
from these fires.
    Thank you again for the opportunity to appear before you today. I 
am happy to answer any questions the subcommittee may have.

    Mr. McCaul. Thank you, Mr. Russell.
    Just for the record, you know, I was at the Bastrop fire on 
Monday, and I believe we called and talked--I called you, and 
we talked to each other. By the next day, FEMA was on the 
ground. So I thank you for that.
    Mr. Russell. Thank you, sir.
    Mr. McCaul. Next we recognize Mr. Harbour for his 
testimony.

     STATEMENT OF TOM HARBOUR, DIRECTOR, FIRE AND AVIATION 
                MANAGEMENT, USDA FOREST SERVICE

    Mr. Harbour. Thank you, Chairman McCaul and Congressman 
Cuellar. It really is an honor for me to be here and to testify 
and to answer questions.
    My name is Tom Harbour. I've had over 40 years of 
experience in the Wildland Fire Program. I started as a 
firefighter, boots-on-the-ground, and have been able to work my 
way up through a variety of positions, including Incident 
Commander at the highest complexity level and Area Commander at 
the highest complexity level.
    It was in that capacity that in 1998 I first came to Texas 
to assist the folks in the great State of Texas with their 
fires, and I first became acquainted with the folks in the 
Texas Forest Service and with the predecessors of Mr. Kidd's 
folks.
    I do have to tell you, as I start off, that over these last 
many years as I've worked with the Texas Forest Service folks, 
you've got some of the best in the business here. Mr. Boggus, 
your State forester, is rightfully proud of the accomplishments 
of the State of Texas folks.
    It really is, as the previous panel members have said, 
those local firefighters and those local boots-on-the-ground 
who are our heros during these events. The U.S. Forest Service 
contributes to those boots-on-the-ground, but we have very 
limited direct protection responsibilities here in Texas. 
Except for six small areas totaling about 675,000 acres, we are 
here at the request of and under the command of the good folks 
in the State of Texas.
    We are a partner, a cooperator. Based on how conditions are 
elsewhere in the country and the assets that we have guarding 
National Forest System lands in those 44 States, we are able, 
at times, to offer significant reinforcements to our partners. 
Over the last several months, we've been proud to do that, 
honored to do that.
    Over the last 6 months, especially, we've filled orders for 
over 90 firefighting crews. These are crews of 20 men and women 
who are utilizing axes and chainsaws to build a fireline. We've 
filled orders for over 100 helicopters that have come into the 
State. We've filled orders for 87 different air tankers who 
have accomplished hundreds of sorties. We've sent nearly 100 
other types of aircraft to assist in the fight, filled orders 
for nearly 400 firefighting engines, over 70 bulldozers, 140 
watertenders, and a dozen Incident Management Teams, the folks 
who were actually there on the ground managing and directing 
the efforts.
    Generally, the U.S. Forest Service has had about 1,000 
people in the great State of Texas during this fire siege. As I 
said, we are pleased to be here. When we are in Texas, we are 
under the command in the locations at the strength specified by 
these good folks in Texas, who, as I've indicated, are amongst 
the best in the business.
    If you've been out there--and I'm sure both of you have--to 
the fireline, you see how we dress in the--in the same type of 
dress when we're out there doing the work, and you can't tell 
the organizational affiliation. That's the way we work. That's 
what we do. We're proud to stand with the folks who have been 
here and will remain here. With that I'm glad to answer any 
questions.
    [The statement of Mr. Harbour follows:]

                   Prepared Statement of Tom Harbour
                            October 17, 2011

    Chairman McCaul and Members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss the Forest Service's 
role in the Federal response to wildfires in Texas. The State has been 
experiencing unprecedented fire behavior this fire season due to 
prolonged drought combined with dry, windy conditions. Between January 
1 and October 4, 2011, over 3,500 fires have burned nearly 3 million 
acres in Texas. Drought is forecast to persist or worsen across the 
south and southwest parts of the Nation for the near future.
    The U.S. Department of Agriculture Forest Service's mission is to 
sustain the health, diversity, and productivity of the Nation's forests 
and grasslands to meet the needs of present and future generations. The 
Forest Service manages 155 National Forests and 20 National Grasslands 
in 44 States and the Commonwealth of Puerto Rico. Because of these 
management responsibilities, the wildland fire organization within the 
Forest Service is the largest in the United States. We have been 
managing wildland fire for more than 100 years. We respond to thousands 
of wildfires and conduct thousands of controlled burns per year.
    Because wildland fire knows no boundaries, teamwork is essential in 
managing a coordinated response. Local, State, Tribal, and Federal 
firefighters all work together in partnership. We all take seriously 
our role in protecting people, property, and valuable natural resources 
from wildland fire. Pooling our strengths and resources helps us to 
maintain our operational excellence and to continually improve the 
safety and effectiveness of fire management.
    The Forest Service is proud to be a part of this unique 
partnership. Congress and the President have given the Forest Service 
authorities that have allowed us to develop a seamless wildland fire 
response network across the United States. We developed the incident 
management system, which has evolved and been adopted across the United 
States for the management of all emergencies, including fire. We 
respond to requests from partners to come and assist by providing 
resources to State or local governments through cooperative agreements.
    In preparing for the 2011 fire season, the Forest Service (along 
with the Department of the Interior) worked along with the States and 
Tribes to ensure we had adequate National firefighting resources 
prepared and positioned. The National Interagency Coordination Center 
(NICC), located at the National Interagency Fire Center in Boise, 
Idaho, oversees coordinated wildland firefighting responses throughout 
the Nation. When fire resources in one geographic area are in short 
supply, the NICC prioritizes, allocates, and, if necessary, re-
allocates resources. Prioritization ensures firefighting forces are 
positioned where they are needed most. Fire resources such as 
personnel, equipment, aircraft, vehicles, and supplies are dispatched 
and tracked through an integrated National system also developed by the 
Forest Service.
    While the Forest Service does have direct protection responsibility 
for 675,000 acres of National Forest System land and grasslands in 
Texas, we are a relatively small player in the State. Of the total 
acreage burned during this fire season, 174 fires have burned 3,651 
acres of the National Forest System land in Texas; 165 fires have 
burned 13,823 acres of land managed by the Department of the Interior 
in Texas; however, 3,194 fires have burned 2,876,126 acres of State and 
private land. We are here because our friends in the Texas Forest 
Service (TFS) asked us to help. We are pleased to be able to do so.
    We have a long and successful partnership with our friends in the 
TFS. We actively assisted TFS with wildfire and support for events in 
the past, most recently Hurricane Ike in 2008 and the wildfires in West 
Texas in 2008 and 2009. We have also taken many actions over the last 
few months of this year to assist TFS with fire suppression efforts on 
State and private lands. To date we have provided approximately 9,908 
fire resources. Specifically, we sent 92 firefighting crews, as well as 
support staff and skilled members of interagency incident management 
teams; a variety of aircraft--104 helicopters, 87 airtankers, 98 other 
aircraft; 387 firefighting engines; 71 dozers; and 140 water tenders.
    Additionally, TFS has established cooperative forest management 
programs, which receive funding from Forest Service, primarily through 
authorities in the Cooperative Forestry Assistance Act of 1978 (Act). 
This Act provides several cooperative grant programs to the State, such 
as:
  <bullet> State Fire Assistance
  <bullet> Volunteer Fire Assistance
  <bullet> Federal Excess Personal Property Program
  <bullet> Firefighter Property
  <bullet> Forest Stewardship
  <bullet> Forest Health
  <bullet> Urban and Community Forestry.
    Forest Service uses its State Fire Assistance authority to provide 
funds to support TFS's fire management capacity. The Forest Service has 
also provided dozens of wildfire intelligence specialists to TFS. These 
resources provide fire weather forecasts, predict fire behavior, 
analyze wildland fuel conditions, study National Fire Danger Rating 
indices and components, and model wildfire growth and potential.
    The Texas Forest Service is one of the most highly skilled and 
experienced wildland firefighting agencies in the United States. The 
Forest Service will continue to be a strong partner and assist with 
fire suppression efforts on State and private lands as the State faces 
challenging wildfire conditions in the months ahead.
    This concludes my statement. I would be happy to answer any 
questions you have.

    Mr. McCaul. Thank you, Mr. Harbour.
    Let me echo your sentiments about the local volunteer 
firefighters. They really were the heroes of this story.
    You know, having been out there, particularly in the 
Bastrop fire, right next to them--and I'll never forget, 
looking at, you know, house by house burnt to the ground. The 
only thing left were the chimneys or any sort of columned 
structure that--any sort of stone left in the house. I'll never 
forget the image of seeing one of these homes where still a 
flagpole was out front with the American flag and the Texas 
flag still waving. Unbelievable. I don't know how they--how it 
survived the fire, but it certainly--it demonstrated a lot to 
me, that we are going to prevail.
    I'd like to start off by saying, you know, I went all over 
the State to study this. We were in Amarillo. We were in 
Abilene. I was at Possum Kingdom, you know, where a lot of 
these fires first started at the beginning of this year. Then I 
was in East Texas, which had a bout of wildfires, and then 
finally ended up--ended up back in Bastrop.
    The stories--you know, we talked to a lot of the County 
Judges, the Emergency Managers, and the stories were very, very 
similar, and very much the same. By and large, I think the 
locals are very pleased with the State's efforts, Mr. Kidd, the 
way you responded, and you have great respect.
    The complaints I heard were several, and that's what I 
wanted to sort of address today. First, pre-positioning of 
assets. You know, it wasn't until Bastrop hits, you know, after 
a year of having fires, very foreseeable, that finally the 
State gets four C-130s and a DC-10 tanker into Austin. That's--
I believe the fire starts Sunday night. Monday, we're out 
there. Wednesday, they arrive from California. They cannot 
deploy until Friday.
    By that time, Bastrop's gone. The Bastrop fire has done its 
damage, and it's near containment. To me, I think that's 
something that could have been avoided had we had more of these 
assets pre-positioned, the ones from California.
    Now, the good news is, as you see in that poster there, 
that--that was on Friday. The DC-10 tanker went to Waller 
County, Montgomery, and put it out. My constituents said it was 
like the cavalry coming in. The good news is for any future 
fires, I do believe we have these assets that can be rapidly 
deployed. But I guess my first question to you, Mr. Harbour, is 
why--why--why did it take a year to get those kind of assets in 
the State of Texas?
    Mr. Harbour. Actually, sir, on the 2nd of September, 
knowing your interest, I went back, and we looked. We did have 
three large air tankers, three water-scooping fixed-wing air 
tankers, 11 air attack fixed-wing aircraft, 12 helicopters, and 
15 single-engine air tankers. So we had a significant number of 
assets here at the request of the Texas Forest Service.
    Obviously, any loss in our business is too much loss, but 
we did have assets here. We were fighting fire all across the 
west at the time. We had assets in other places with active 
fire also, but we did have several assets here in the State.
    Mr. McCaul. Well, I think we--I just think we could have 
had more. You know, the DC-10 tanker alone, if that had been 
under contract, could have been deployed. Then when it gets 
here, that Wednesday, there's a 2-day downtime because of 
crest--the crew has to rest. So you have 2 days--you know, 2 
more days of fires going on, and every hour counts in these 
fires. You have the crew rest, you know, for, you know, about 2 
days.
    So that--to me, that's--I think a lot of people were very 
angry and upset about that when they got that news. They didn't 
quite understand why it took so long to get the plane, and then 
when you finally got it, you couldn't even deploy it for 
another 2 days. Do you have any response to that?
    Mr. Harbour. Yes, sir. As you and Mr. Cuellar said, we are 
interested in lessons learned. We're certainly going to be 
taking a look at what we did. We speak--State Forester Boggus 
and I speak frequently about ways we can improve and be better. 
We certainly will look to the future and see what we might do.
    In the particular case of the DC-10, that aircraft was 
engaged in community protection in California previously to its 
being deployed here to Texas. Because of crew rest cycles, 
because of the intensity and danger of those kinds of low-level 
drops, we do insist on crew rest. But we are going to be taking 
a look at it, sir. You bet.
    Mr. McCaul. Well, I think that's--that's a clear lesson 
learned we ought to be taking from this, that, you know--and I 
know you and I talked maybe on Tuesday. I mean, I was reporting 
this, what I was seeing, and all you had to do was turn the TV 
on to see it. You know, it takes until Friday to get the 
requisite aviation assets.
    In addition, there were some P-3s--or eight P-3s that were 
sitting on a runway in California. I think we all saw that 
picture. I don't have it with us here today, but--and the 
answer with respect to those was that they were not airworthy. 
Under the regulations, they were not airworthy; and so, 
therefore, even though the Governor requested these assets, he 
relied on--I believe it was your representation that they were 
not safe to fly.
    Yet, when we looked through some of the documents, I found 
an aircraft approval certificate for these airplanes, that they 
were airworthy, that these could have been deployed from 
California. So what is the truth here?
    Mr. Harbour. You'll notice, sir, on the last page of that 
card, the first item, that there is a specific notation that 
there was a portion of the contract that we were attempting to 
work through with that particular contractor. They ultimately 
didn't supply the kind of documentation that we needed after 
working with them for years. We could not be assured of their 
safety.
    Fundamentally, they didn't comply with the contract. So 
without that assurance of their safety, and with them not 
complying with the contract, those--that contract was 
terminated with that contractor.
    Mr. McCaul. That's unfortunate. So--I mean, it says 
``aircraft approval.'' So they are approved as airworthy. 
You're just saying the contract was terminated?
    Mr. Harbour. Yes, sir. There is another side of that card 
there. I don't know if you actually have it, but there were 
four corrective items listed on that particular card that you 
have there. I can show it to you later or to your staff. But it 
did reference that we were in an on-going discussion with that 
particular contractor as we hoped they would comply with the 
terms of the contract.
    Mr. McCaul. Okay. Let me--let me shift now to the--getting 
a Federal disaster recommendation. Now, this is something the 
Governor's office, you know, I think on nine separate occasions 
had requested a Federal disaster declaration. I believe only on 
one occasion was it granted for, I think, 30 days, and then it 
expired.
    Then, of course, you know, Bastrop hits, and that became, 
you know, the eye opener, even though--I believe, Mr. Kidd, you 
said we've had, how many, 21,000 fires, you said?
    Mr. Kidd. Yes, sir.
    Mr. McCaul. Twenty-one thousand fires, and it takes this 
type of explosion to finally get the attention of the President 
that, you know, perhaps we need to declare this a disaster when 
the warning signs have been there all along.
    Why is this so cumbersome? Why can't the President just 
call--why can't the Governor call the President of the United 
States on the phone and say, ``Have you seen what's going on on 
the television? I've got a problem. I've got a real disaster 
going on. Will you please declare this a Federal disaster?''
    Mr. Russell. Yes, sir. You know, as we take a look at the 
Stafford Act, and the Stafford Act tells us that the--a 
Governor makes that request, and from that request it goes from 
the Governor to the Regional Administrator. In that case, it 
would be me. Then I do an analysis of the area and of the 
situation. From that, then it goes further toward the President 
making the declaration. I think a key behind some of this is it 
has to be, amongst other things, uninsured losses.
    I can recall in Oklahoma they had a large tornado. It went 
through. You know, a great deal of damage was there. As we 
began to do the assessment, it was all insured losses, so there 
was no need for a declaration. That only is an example of an 
event that is large that sometimes does not lead to a 
declaration.
    In this case here, our goal was to support the Governor and 
the Governor's team to make sure that we sent up to Washington 
the prescribed items that were required for us to move forward 
toward the decision for that declaration.
    Mr. McCaul. Well, Mr. Kidd, was the administration 
responsive to your request to declare this a Federal disaster?
    Mr. Kidd. I'd like to go back and make sure that I 
articulated correctly. I mentioned earlier that we had nine 
gubernatorial disaster declarations. Not all nine of those were 
sent to FEMA. In fact, for the last 20 years, Texas has had 
over 240 local and State-wide disasters, but only 40 of those 
have been sent to the Feds for assistance.
    During this wildfire season, we asked for our first 
disaster declaration for the entire season for 252 counties on 
April 16. We were told on May 3 that it was denied because we 
didn't have enough damage meeting--leading up to that point. 
As--as Regional Administrator Russell says, Texas is a large 
State. It takes $34 million of uninsured loss to meet what I 
refer to as our family deductible.
    Each county then has to have their individual deductible 
met before that county is eligible. So counties right next to 
each other, based on population, have different deductibles. So 
if both don't meet--one does and one doesn't--only one gets it 
and the other doesn't. We believed that we had met our $32.5 
million, at the time, now $34 million threshold of uninsured 
loss back in April when we asked.
    Again, I want to point out--because I think it's very easy 
to get concerned and confused between the difference in--in 
assistance with personnel and equipment versus the Federal 
reimbursement assistance, which is primarily what we're seeking 
at this point.
    So we did get the Federal resources--the people and the 
equipment that we asked for--when they were available to assist 
us with fighting the fires. The biggest struggle right now is 
getting the $304 million in money returned to us that we spent 
fighting fires.
    I think that answered your question, but I'm not real sure.
    Mr. McCaul. Well, and let me--let me touch on that issue. 
The $304 million--and I believe the split is, what, 75/25 
percent?
    Mr. Kidd. Yes, sir.
    Mr. McCaul. So the Feds should pay 75 percent of that, and 
the State has to pay 25 percent?
    Mr. Kidd. Yes, sir.
    Mr. McCaul. You put that request in?
    Mr. Kidd. Yes, sir, that's correct.
    Mr. McCaul. This goes back to FEMA. When I traveled around 
the State, they said, you know, whether it was the hurricane 
season or--many times these requests take 2 to 3 years to get 
reimbursed. A lot of the smaller counties, they can't afford--
their budgets can't afford that, that type of projection where 
they have to wait 2 to 3 years to get reimbursed by FEMA.
    Why does--why does this take so long?
    Mr. Russell. Sir, I think that when it comes to our 
reimbursement, that is a collaboration with FEMA and the State 
and the applicant. The way that it works is that the--the cost 
and the bills are basically brought from the individual, from 
the applicant, up to the State and FEMA, and then we come 
together, and then, from there, those bills are paid.
    At times, it takes a lot of time for the--the applicant to 
collect the bills and to collect the information that is 
required to move forward. A key part is that FEMA--we deal with 
the grantee, and the grantee, for us, is my State partner. So 
that's our linkage there.
    When it comes to the applicant or the sub-grantee, for 
instance, you know, that money is sent from the State down--
from the grantee down to the sub-grantee. So there's time in 
that whole process there, but I find a lot of times it's the 
ability to get all the information in order to properly 
validate what they are requesting.
    Mr. McCaul. Well, and I understand, you know, doing it 
accurately so you don't have, you know, fraud, waste, and 
abuse.
    Mr. Russell. Right.
    Mr. McCaul. But, I mean, 3 years? I just think we can 
streamline--it's way too bureaucratic. I think we can 
streamline the process so that reimbursement can take place 
more in real-time, because, again, these local counties can't 
afford it. They're concerned about people leaving their 
counties now because of the lack of reimbursement and 
assistance.
    So one last point. This one was sort of classic Federal 
Government. Perhaps you can explain it to me. But I'm meeting 
with the local County Judge who is also the Emergency Manager 
in a small county, who is also a volunteer firefighter, and 
he's got another job. You know, when these fires hit, they come 
out of nowhere, and they--they're fast. They move--particularly 
the grass fires. Of course, what we saw in East Texas and 
Bastrop, these pine trees explode.
    Their first priority is to put out the emergency, put out 
the fire, as it should be. So when FEMA comes in and says, 
``You know, you've got to fill this paperwork out here,'' and 
you have to make your application for these grants prior to 
containment, this is what I don't understand.
    Because you're putting the firefighter in the position of 
trying to decide, ``Okay. Am I going to try to put out the 
immediate emergency, putting out the fire, or do I have to sit 
down at night-time--by the way, I've got another job--and fill 
out all this paperwork?''
    Why in the world--why is that? Why can't you wait? Why 
can't they put out the fire first, have it contained, and then 
sit down and fill out the paperwork? It's a competing interest 
that doesn't make sense.
    Mr. Russell. Sir, I would say this. When it comes for the 
FMAG, that Fire Management Grant, that's a 1-pager that I get. 
I get this 1-pager. What it does, it basically defines for me 
the parameters of the event.
    Then I get a phone call, and the phone call can come any 
time of the night. I get them at 1:00 a.m., 2:00 a.m., 3:00 
a.m., and then myself and the staff, we take a look at what's 
going on per the request from the State, and then from there we 
say, ``Yes, this requires an FMAG to move forward with.''
    So I think that that initial request is only 1--1 page, and 
then from there there may be other things depending on the 
complexity of the situation, but I am going to take a look at 
ways we can do a more--better job to streamline. Because I, 
like you--you know, I don't like to put a lot of complexities 
on the local responders. I want to make sure that we're there 
to help them and not to be a hindrance.
    Mr. McCaul. Well, and I appreciate that. I think--this is 
not--this is not me spinning this. I went and talked all across 
the State, particularly the smaller counties. They don't have 
staffs. I mean, the bigger cities, they have staff that can 
fill a lot of this stuff out.
    I was told that prior to containment, though--maybe you 
have your 1-pager in the beginning, but then--but then prior to 
it actually being contained, that the application had to be 
submitted. So maybe it would make sense and some places it 
would work better with FEMA, where FEMA would position 
themselves with the county and help them with this paperwork. I 
know maybe that's not--you don't consider that to be your job, 
but it seems to me, particularly in counties that are smaller 
that need that kind of help, you could have one of your guys 
maybe sit down with them and say, ``Here is what we need to 
fill out, and let me help you do this.''
    Mr. Russell. Yes, sir. In fact, I think anything that can 
make this more simpler for the counties is my--is my job, and I 
will work with the State to ensure that we do that.
    Mr. McCaul. I think that's a--that's a good note for me to 
end on. I--you know, look, what happened happened, and I wish 
it hadn't. There will be more of these across the State. I 
think we should have had more assets pre-positioned to handle 
the Bastrop and others.
    The good news is we have them now. I think we've learned 
some lessons, but I want to continue to work with this 
distinguished panel to make sure, first and foremost, that 
Texans are protected and that the assistance that Texas 
deserves goes to the State.
    With that, I will recognize my good friend and Ranking 
Member, Congressman Cuellar, who apparently had a couple of 
emergencies as he got up from his chair and walked away.
    Mr. Cuellar. Actually, I wanted--I wanted to get the 
correct numbers on the cuts that were done to FEMA and the 
firefighters. I just wanted to get the correct things.
    Look, two things. I think we need to talk about money, and 
then we need to talk about whether there was a problem on the 
response and recovery.
    Again, all this is controlled by the Stafford. As I said, I 
used to chair the budget when we started with what I call the 
old FEMA and the new FEMA. I think the new FEMA is certainly a 
lot better than what we saw in Katrina and a lot of places, and 
I think the State and the local folks can say that. We still 
need to do a lot in streamlining. I agree with my--my friend, 
Michael, that we need to streamline paperwork, and I'm for 
that.
    But let me--let me--let me get this correctly. Mr. Kidd, 
you and I have been around for a while, and I believe, as you 
mentioned, there's a difference between response and recovery. 
So let's talk about the response.
    First--well, let's start with--well, let's start with the 
response. Then we'll talk about the recovery. I believe both 
you and Mr. Starbuck both said that FEMA was there from the 
very beginning, and they provided the resources that you needed 
in the response. Not the recovery part of it. I want to make 
sure that we're brutally honest with each other, and if there's 
a problem with FEMA, certainly, as the former Chairman, I want 
to hear about it. But, you know, I want to know what we need to 
do.
    Your--you said a few minutes ago that FEMA was there from 
the very beginning, and the problem was not with the response. 
It was with the recovery part. So just--just for now talk about 
the response part of it.
    Mr. Kidd. Yes, sir.
    Mr. Cuellar. Mr. Starbuck, I believe you said the same 
thing--basically the same thing.
    Mr. Kidd. Yes, sir. Thank you for that. It's important that 
we all remember, especially me, that when FEMA responds, it's 
generally for Incident Management Assistance Teams, which are 
highly trained people that help us put together the response 
around the organization. FEMA doesn't come in as incident 
commanders.
    A lot of people get confused whenever a Federal Type 1 
Incident Management Team comes in, which is generally Chief 
Harbour's folks, which are Federal partners and State partners 
that form an Incident Management Team that can become incident 
commanders of a fire. So two different groups there, although a 
lot of times we paint them with the same Federal brush.
    Mr. Cuellar. Right.
    Mr. Kidd. From--from Tony Russell's position, his teams--
his Incident Management Teams help us get our hands wrapped 
around the organization to respond to the recovery side of the 
House, and Tony brings with him a big stick of making sure that 
the Federal agencies that come together are playing by the same 
playbook.
    I can say with certainty that that portion of our response 
has happened. I mean, Tony has helped to bring everybody to the 
table on the Federal side, much like I do as a State 
coordinator. As a State coordinator, my job is to make sure 
that the directors of the State agencies are playing well with 
each other and responding to the incident in a unified fashion. 
I'll say that that did happen.
    Mr. Cuellar. It did happen. Mr. Starbuck--then I want to 
ask you, Mr. Kidd, because I know you've got a vast experience, 
and I'm going to ask you one other question. Because I think 
we're on the same page about the Stafford Act needs to be 
changed.
    Mr. Starbuck, you said the same thing, did you not? Again, 
we've got to be brutally honest with each other about--about 
the FEMA role in this on the response part of it. Just the 
response.
    Mr. Starbuck. Correct. First of all, Congressman McCaul, I 
just want to correct that I'm not the County Judge. I'm sure 
Judge Houdashell and Judge Ware in Potter and Randall Counties 
would appreciate that I'm their Emergency Management 
Coordinator and not the County Judge.
    Mr. Cuellar. Tell them you got a new promotion when you 
came to Washington.
    Mr. McCaul. You just got promoted.
    Mr. Starbuck. I will say this. That, once again, from a 
local perspective, our role is to deploy all local assets and 
then, as we recognize that our assets are--that the response to 
the incident is beyond our capabilities, we request assistance 
from the State. There is not a mechanism for me to call FEMA 
directly unless I am circumventing the system.
    So those requests go to our local Disaster District 
Committee that starts the ball rolling for State and Federal 
assistance. In the February 27 wildfires, the State assets that 
were in the area of Amarillo, Texas, were rapidly deployed to 
us to assist us.
    Again, in the wildfires that occurred in May--May 24 and 
May 29--State and, in the case of the May 24 wildfire, U.S. 
Forest Service assets that were in the region were deployed to 
our wildfires and assisted our local responders with bringing 
those fires under--under containment.
    So from that perspective, I agree wholeheartedly with Chief 
Kidd that the assistance that we were requesting was being 
provided from a response perspective as far as assets that were 
deployed to the wildfires.
    Mr. Cuellar. Now, the recovery part for both of y'all, that 
is something where we've got to get the--what is it, $300-plus 
million back from--from FEMA. Is that correct?
    Mr. Starbuck. Yes, sir.
    Mr. Cuellar. That--that's the second part. Maybe that's 
what we need to talk about, streamlining the process itself. 
But that's the recovery. I was talking about the response.
    Both of y'all, do you disagree with my interpretation of 
the Stafford Act, which governs disaster response, that it 
recognizes that State and local--not the Federal Government--
have the primary responsibility to address disaster 
emergencies?
    Mr. Kidd. Yes, sir, I agree with you.
    Mr. Cuellar. Do you agree with me that the Stafford Act 
needs to be updated?
    Mr. Kidd. Yes, sir, I agree with you.
    Mr. Cuellar. If you--and this is to all panel members. If 
you have any ideas that you can give the Chairman and I, I'd be 
happy to work with you, because it gets a little--it's not only 
Homeland, but then you've got the Transportation Infrastructure 
Committee that comes in, and it becomes a jurisdiction 
question. But we would like to see if--at least what's within 
our area that we can, I'd like to update the Stafford Act 
because I think it needs to be updated.
    Now, the reason I got up there a few minutes ago was to 
double-check some numbers. This summer, there was a vote on 
Homeland. As you know, both Mike and I serve in the Homeland. 
But the Homeland Appropriations Bill was put on the House 
floor. I voted no. I usually vote yes for the Homeland 
Appropriations Bill.
    I voted no because it cut FEMA, State, and local programs 
by a staggering amount of 55 percent below the enacted level 
and 70 percent below the fiscal year 2010.
    Similarly, the bill cuts 57 percent from the Firefighter 
Assistance Grants compared to 2010 and 2011. There were some 
cuts to FEMA management also. I believe it was--I think the CR 
cut first responders by $783 million, $24.3 million from FEMA 
management, which will affect you.
    There was an amendment on the floor which I voted in favor 
that increased funding by $320 million to the Firefighter 
Assistance Grants, and we had to upset that. So it was cut. The 
reason I voted no--and I usually vote for the Homeland 
Appropriations--is that we can't be here complaining about the 
Federal Government while we cut FEMA funding.
    Again, the general statement I said at the beginning--you 
know, a couple of years ago, people were complaining about the 
Federal Government. Now we're saying, ``Hey, where is the 
Federal Government in this role?''
    The Federal Government has a role, and we have to be very 
careful what our core mission is up there. We can't do 
everything, but I certainly feel that response--or should I say 
emergencies is a core part of it, border security, which Mike 
and I support all the way. But emergency is one part that we 
can't cut and then complain that there's not enough money to 
address this, or we can't complain about the Federal Government 
and say that there's no role of it. But when it affects us 
directly, ``Where is the Federal Government on this thing?''
    Mr. Russell, can you tell us about some of the cuts and how 
that affects you in your response and recovery part of it?
    Mr. Russell. Well, sir, I can say this, you know. When it 
comes to our response and recovery on the ground, we have that 
Disaster Relief Fund. From that fund is how we are able to 
respond and recover.
    On the response side, Mr. Fugate has already said there 
would be no issues with----
    Mr. Cuellar. By the way, let me interrupt.
    Mr. Russell. Yes, sir.
    Mr. Cuellar. Mr. Fugate from Florida--and I got to deal 
with him when I was the Chairman----
    Mr. Russell. Yes.
    Mr. Cuellar [continuing]. Is a State-trained person.
    Mr. Russell. Yes.
    Mr. Cuellar. When he's State-trained, I think that's--
again, nothing against Washington bureaucrats, but when you get 
somebody from the State who has been involved, like you, Mr. 
Kidd, at the State level and you put him in charge of FEMA, he 
has brought in new ideas and I think has broken this 
bureaucracy that we've been talking about, and he brings a 
State perspective and a local perspective that I think has been 
good for FEMA. So I've just got to say that about Mr. Fugate.
    Mr. Russell. Yes, sir. You're absolutely right. You know, 
we leaned forward in any response, and we are sure to make--to 
deal with the survivors and make sure that we are proactive.
    The impact was with the recovery. We had that immediate 
needs funding to where we could only fund Category A and B, 
which is things for the emergency, and so all of those brick-
and-mortar type projects were put on hold. To me, that was the 
biggest impact. But now we're back on track now, but I can say 
that that was the impact was on the recovery, on being able to 
move forward to build things.
    Mr. Cuellar. All right. Again, the Super Committee is going 
to be hopefully coming up with some recollections. As you know, 
we cut $1 billion already, and we're supposed to come up with 
another $1.5 billion. If the Super Committee doesn't come up 
with any suggestion, which I hope they do, then there's going 
to be a sequester, which means that everybody is going to be 
cutting.
    In fact, money coming to the States, money to the USDA, 
money to FEMA, military, everybody is going to be cut, and it's 
certainly--at the local level, it's going to be impacted. So 
again, we're all for cutting the deficit, but we have to set 
certain priorities, and I think emergencies, border security, 
our military should be some of the priorities that we have.
    So I want to thank you, and I don't know if Mike is going 
to have another round of questions, but I'll be happy to----
    Mr. McCaul. Not unless you do.
    Mr. Cuellar. No.
    Mr. McCaul. Yeah. Just let me--and we did pass, you know, a 
short-term continuing resolution, which does fund FEMA. It's a 
clean funding bill, which I supported, particularly given 
what's happened in the State of Texas.
    So with that, let me just--just thank all the witnesses for 
being here today. This will probably be not the last time we'll 
be speaking, but I--you know, with--Tony, with you and Mr. 
Harbour and Nim, General--I mean, we've--we've worked pretty 
hard over the last couple of months on this. I will continue to 
work closely with you and with Mr. Cuellar if there are ways we 
can improve the response--improve the response and recovery 
efforts.
    I do think that we should have had more in terms of 
aviation assets pre-positioned. Having said that, we are 
fortunate that they're here now. When it comes to reimbursing 
the State of Texas, I think that it should be done more 
efficiently and not take 3 years to do that.
    So with that, we again thank the witnesses for being here, 
and this committee is adjourned.
    [Whereupon, at 11:22 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
